<html>
<title> - H.R. 1005, H.R. 1723, H.R. 2707 and H.R. 2766</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
             H.R. 1005, H.R. 1723, H.R. 2707 and H.R. 2766
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 24, 2003

                               __________

                           Serial No. 108-45

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov









                      U.S. GOVERNMENT PRINTING OFFICE

88-530                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001












                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 24, 2003....................................     1

Statement of Members:
    Acevedo-Vila, Hon. Anibal, a Delegate in Congress from Puerto 
      Rico, Prepared statement on H.R. 1723......................    14
    Beauprez, Hon. Bob, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement on H.R. 2766..........................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement on H.R. 1005..........................    16
        Prepared statement on H.R. 2707..........................    30
    Pearce, Hon. Steve, a Representative in Congress from the 
      State of New Mexico, Oral statement on H.R. 2707...........    32
    Stenholm, Hon. Charles W., a Representative in Congress from 
      the State of Texas, Oral statement on H.R. 2707............    30

Statement of Witnesses:
    Baroch, Hon. Charles J., Mayor, City of Golden, State of 
      Colorado...................................................     9
        Prepared statement on H.R. 2766..........................    11
    Carlson, Tim, Executive Director, Tamarisk Coalition.........    40
        Prepared statement on H.R. 2707..........................    42
    Davis, Hon. Don, Commissioner, Rio Blanco, Colorado..........    20
        Prepared statement on H.R. 1005..........................    21
    Davis, Tom W., Manager, Carlsbad Irrigation District.........    50
        Prepared statement on H.R. 2707..........................    52
    Estill, Elizabeth, Deputy Chief, Programs, Legislation and 
      Communications, Forest Service, U.S. Department of 
      Agriculture, Oral statement on H.R. 1723...................    15
        Oral statement on H.R. 2707..............................    33
        Oral statement on H.R. 2766..............................     6
        Prepared statement on H.R. 1723, H.R. 2707 and H.R. 2766.     7
    Kearney, Chris, Deputy Assistant Secretary, Policy/
      International Affairs, U.S. Department of the Interior.....    17
        Prepared statement on H.R. 1005..........................    18
    Kershaw, John R., President, Imperial Valley Conservation 
      Research Center Committee, Imperial County, California.....    53
        Prepared statement on H.R. 2707..........................    54
    Redifer, John, Ph.D., Department of Social and Behavioral 
      Science, Mesa State College................................    46
        Prepared statement on H.R. 2707..........................    48
    Sulnick, Bob, Campaign Manager, Alliance for the Rio Grande 
      Heritage...................................................    56
        Prepared statement on H.R. 2707..........................    57
    Tate, James, Science Advisor to the Secretary, U.S. 
      Department of the Interior.................................    34
        Prepared statement on H.R. 2707..........................    36











     LEGISLATIVE HEARING ON H.R. 2766, TO DIRECT THE SECRETARY OF 
AGRICULTURE TO EXCHANGE CERTAIN LANDS WITHIN THE ARAPAHO AND ROOSEVELT 
   NATIONAL FOREST IN THE STATE OF COLORADO; H.R. 1723, TO DESIGNATE 
CERTAIN NATIONAL FOREST SYSTEM LANDS IN THE COMMONWEALTH OF PUERTO RICO 
 AS COMPONENTS OF THE NATIONAL WILDERNESS PRESERVATION SYSTEM, AND FOR 
OTHER PURPOSES; H.R. 1005, TO PROVIDE PERMANENT FUNDING FOR THE PAYMENT 
  IN LIEU OF TAXES PROGRAM, AND FOR OTHER PURPOSES; AND H.R. 2707, TO 
DIRECT THE SECRETARIES OF THE INTERIOR AND AGRICULTURE, ACTING THROUGH 
THE U.S. FOREST SERVICE, TO CARRY OUT A DEMONSTRATION PROGRAM TO ASSESS 
POTENTIAL WATER SAVINGS THROUGH CONTROL OF SALT CEDAR AND RUSSIAN OLIVE 
   ON FORESTS AND PUBLIC LANDS ADMINISTERED BY THE DEPARTMENT OF THE 
                 INTERIOR AND THE U.S. FOREST SERVICE.

                              ----------                              


                        Thursday, July 24, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:07 a.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McInnis, Rehberg, Renzi, Pearce, 
and Mark Udall.
    Also present: Representatives Cannon and Beauprez.

 STATEMENT OF THE HONORABLE SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. The Subcommittee on Forests and Forest Health 
will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
2766, Arapaho and Roosevelt National Forests Land Exchange Act 
of 2003; H.R. 1723, the Caribbean National Forest Act of 2003; 
H.R. 1005, PILT and Refuge Revenue Sharing Permanent Funding 
Act; and H.R. 2707, Salt Cedar and Russian Olive Control 
Demonstration Act.
    I would ask unanimous consent that our fellow members could 
have permission to sit on the dais. No objection, so ordered.
    I have no opening statements at this point, though I may 
offer some as we proceed. And Mr. Inslee may have an opening 
statement when he comes in at a later point as well.
    I would like to move quickly to our first bill. I would 
like to explain to our guests, I know a number of you have 
traveled a great distance. I appreciate very much you taking 
the time to come to the Committee hearing today. I would advise 
you that the lack of attendance here is pretty typical. We have 
lots of conflicts. On top of that, we are competing with the 
House of Representatives, which met until about 2:30 this 
morning. So I would guess that there are still some people out 
there trying to catch a snooze because we are supposed to work 
that kind of night tonight as well.
    But, regardless, the important thing here is not so much 
what is heard today, although that is important to our members; 
it is also what goes in the permanent record. So I do 
appreciate your participation.
    Mr. McInnis. I would like to introduce our witnesses for 
H.R. 2766 on panel one. We have the Honorable Bob Beauprez, 
District of Colorado. Bob, thank you so much, and I know that 
you didn't get much sleep last night either--Elizabeth Estill--
Elizabeth, thanks. Nice to see you again--Deputy Chief, 
Programs, Legislation, and Communications, U.S. Forest Service; 
And Charles Baroch, the mayor of the city of Golden, State of 
Colorado.
    If you would like to take the seats up there.
    I remind all members and all people in the audience, if you 
have a cell phone, to avoid the wrath of the Chairman, turn it 
off or put it on vibrate. Second of all, we do allow our 
witnesses and our members 5 minutes. We try to adhere to that 
in order to give other people their time that they have 
requested as well.
    Mr. Beauprez, thank you again for coming, and I am going to 
let you proceed. You may begin.

 STATEMENT OF HON. BOB BEAUPREZ, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Beauprez. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. I appear before you today in 
support of my bill, H.R. 2766, which authorizes and directs a 
small land exchange between my constituents, the city of 
Golden, and the United States Forest Service. Before I go any 
further, I would like to also thank Congressmen Udall and 
Tancredo, who have graciously cosponsored H.R. 2766 with me. 
That would be Congressman Mark Udall.
    Two of the three land exchange parcels in the bill are in 
Mr. Udall's district, and our staffs have worked closely to get 
this legislation introduced and expedited forward. The 
legislation also has been endorsed by Clear Creek, Park, and 
Summit Counties in Colorado, the Continental Divide Trail 
Alliance, the city of Black Hawk Public Works Department, and 
the Georgetown Loop Railroad, and I would ask, Mr. Chairman, 
that their letters of support be included in the record of this 
hearing.
    Mr. Chairman, as you are well aware, water shortages in 
Colorado have been no laughing matter the past several years, 
and the primary purpose of H.R. 2766 is to enable the city of 
Golden to expeditiously acquire a nearly 10-acre parcel of 
national forest land that it needs to help complete a small 
water storage project near Empire, Colorado. The water storage 
reservoir itself and the proposed pipeline leading to the 
reservoir are all located entirely on private land, and the 
construction of the reservoir was initiated this June.
    However, a small 125-foot stretch of the pipeline to 
service the reservoir must cross national forest land, and both 
the city of Golden and the Forest Service have agreed that it 
would be best for all concerned if the city could own the land; 
hence, this proposed land exchange of H.R. 2766.
    Happily, even though the water needs of the city of Golden 
are my primary reason for introducing H.R. 2766, we have been 
able to structure this land exchange to also greatly benefit 
the Forest Service. Those benefits derive from the fact that in 
return for giving up only 9.84 acres of land that mostly 
comprise a steep hillside, the Forest Service will acquire up 
to 80 acres of forest inholdings near Evergreen, Colorado, that 
are near a popular Forest Service trail head in Cub Creek.
    In addition, the Forest Service will also receive a 61-acre 
donation of surface land from the city that contains part of 
the route of the Continental Divide National Scenic Trail.
    So, Mr. Chairman, not only will this be an equal-value 
trade of lands, but the Forest Service will gain a significant 
donation of land over and above equal value and that donation 
will consolidate national forest holdings along one of the 
Nation's most popular hiking scenic trails.
    Mr. Chairman, I want to emphasize that in making the 61-
acre donation along the Continental Divide Trail, the city of 
Golden is going far beyond what it legally needs to do to have 
the land exchange meet standard land exchange requirements. I 
commend the city for going the extra mile to help the Forest 
Service in its efforts to consolidate its ownership of the 
route of the Continental Divide Trail. Donating the land to the 
Forest Service in this case will mean that scarce trail 
acquisition dollars, which you, Mr. Chairman, and other members 
of our Colorado delegation have worked extremely hard to get 
appropriated over the years, can be used in other places.
    I would also note that the Argentine Pass area, where the 
city is donating the land, not only contains the actual route 
of the Continental Divide Trail itself, but a popular access 
route to get to the trail, as well as one of several routes 
used to climb Gray's and Torrey's Peaks, which are perhaps the 
most visited 14ers in our entire State.
    I want to emphasize to the Committee that enactment of this 
legislation is an urgent matter. Although the city of Golden 
and other front-range cities appear to have a reprieve this 
summer from the extreme drought conditions of the past several 
years, completion of the Empire reservoir project is critical 
to ensuring that the city has adequate water supplies should 
the drought return.
    To that end, H.R. 2766 provides that if the proposed land 
exchange cannot be completed for any reason, such as hazardous 
materials or other title problems with the exchanged land, the 
Empire parcel will be sold to the city and the sale proceeds 
used to buy other lands for the Forest Service in accordance 
with the Sisk Act.
    In addition, the bill provides that immediately upon its 
enactment, the city can begin laying the pipeline across the 
national forest land this fall without further action required 
by the Forest Service. As the pipeline will be laid in an 
existing irrigation ditch and will cross only 125 feet of 
Forest Service land before going entirely onto private land, I 
do not think that authority is too much to ask.
    In conclusion, Mr. Chairman, thank you again for scheduling 
the hearing so quickly on this matter. This exchange is a 
classic win-win for both the citizens of the city of Golden and 
the Forest Service and the public in general.
    I would be glad to answer any questions if you have them, 
and I yield back.
    [The prepared statement of Mr. Beauprez follows:]

 Statement of The Honorable Bob Beauprez, a Representative in Congress 
                from the State of Colorado, on H.R. 2766

    Thank you, Mr. Chairman.
    Dear Chairman McInnis, Ranking Member Inslee, and Members of the 
Subcommittee, I appear before you today in support of my bill, H.R. 
2766, which authorizes and directs a small land exchange between my 
constituent, the City of Golden, and the U.S. Forest Service.
    Before I go any further, I would like to also thank Congressmen 
Mark Udall and Tom Tancredo, who have graciously co-sponsored H.R. 
2766. Two of the three land exchange parcels in the bill are in Mr. 
Udall's district and our staffs have worked closely to get this 
legislation introduced and expedited forward. The legislation has also 
been endorsed by Clear Creek, Park, and Summit Counties; the 
Continental Divide Trail Alliance; the City of Black Hawk Public Works 
Department; and the Georgetown Loop Railroad, and I would ask that 
their letters of support be included into the record of this hearing.
    Mr. Chairman, as you are well aware, water shortages in Colorado 
have been no laughing matter for the past several years, and the 
primary purpose of H.R. 2766 is to enable the City of Golden to 
expeditiously acquire a nearly 10-acre parcel of National Forest land 
that it needs to help complete a small water storage project near 
Empire, Colorado. The water storage reservoir itself and the proposed 
pipeline leading to the reservoir are all located entirely on private 
land, and construction of the reservoir was initiated in June. However, 
a small 125-foot stretch of the pipeline to service the reservoir must 
cross National Forest land, and both the City of Golden and the Forest 
Service have agreed that it would be best for all concerned if the City 
could own that land. Hence, the proposed land exchange of H.R. 2766.
    Happily, even though the water needs of the City of Golden are my 
primary reason for introducing H.R. 2766, we have been able to 
structure this land exchange to also greatly benefit the Forest 
Service. Those benefits derive from the fact that in return for giving 
up only 9.84 acres of land that mostly comprise a steep hillside, the 
Forest Service will acquire up to 80 acres of forest inholdings near 
Evergreen, Colorado, that are near a popular Forest Service trailhead 
in Cub Creek. In addition, the Forest Service will also receive a 61-
acre donation of surface land from the City that contains part of the 
route of the Continental Divide National Scenic Trail.
    So, Mr. Chairman, not only will this be an equal value trade of 
lands, but the Forest Service will gain a significant donation of land 
over and above equal value--and that donation will consolidate National 
Forest holdings along one of the nation's most popular hiking trails.
    Mr. Chairman, I want to emphasize that in making the 61-acre 
donation along the Continental Divide Trail, the City of Golden is 
going far beyond what it legally needs to do to have the land exchange 
meet standard land exchange requirements. I commend the City for going 
the extra mile to help the Forest Service in its efforts to consolidate 
its ownership of the route of the Continental Divide Trail. Donating 
the land to the Forest Service in this case will mean that scarce trail 
acquisition dollars, which you, Mr. Chairman, and other members of the 
Colorado Congressional delegation have worked extremely hard to get 
appropriated over the years, can be used in other places. I would also 
note that the Argentine Pass area, where the City is donating the land, 
not only contains the actual route of the Continental Divide Trail 
itself, but a popular access route to get to the Trail, as well as one 
of several routes used to climb Grays and Torreys Peaks, which are 
perhaps the most visited ``14ers'' in the state.
    I want to emphasize to the Committee that enactment of this 
legislation is an urgent matter. Although Golden and other front range 
cities appear to have a reprieve this summer from the extreme drought 
conditions of the past several years, completion of the Empire 
reservoir project is critical to insuring that the city has adequate 
water supplies should the drought return. To that end, H.R. 2766 
provides that if the proposed land exchange cannot be completed for any 
reason, such as hazardous materials or other title problems with the 
exchange land, the Empire parcel will be sold to the City, and the sale 
proceeds used to buy other lands for the Forest Service in accordance 
with the Sisk Act. In addition, the bill provides that immediately upon 
its enactment, the City can begin laying the pipeline across the 
National Forest land this fall without further action required by the 
Forest Service.
    As the pipeline will be laid in an existing irrigation ditch, and 
will cross only 125 feet of Forest Service land before going entirely 
on to private land, I don't think that authority is too much to ask.
    In conclusion, Mr. Chairman, thank you again for scheduling a 
hearing so quickly on this matter, and for working with me, Congressman 
Udall, Congressman Tancredo, the non-profit Continental Divide Trail 
Alliance, and numerous others to see that it becomes law at the 
earliest possible date. This exchange is a classic ``win-win'' for both 
the citizens of the City of Golden, the Forest Service, and the public 
in general.
    I would be happy to answer any questions you and Members of the 
Subcommittee might have.
    Thank you again, Mr. Chairman.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Beauprez. Also, I appreciate 
the personal time you have committed to this and sitting with 
the Chair and kind of going through the details.
    Mr. Beauprez. A pleasure. Thank you.
    Mr. McInnis. And I want you to know I am still mad at your 
mayor in Golden for stealing our city manager out of Rifle.
    [Laughter.]
    Mr. McInnis. You got a good guy--Mr. Bestor. He does a very 
good job, and you have a wonderful community.
    Elizabeth, you may proceed, and thank you again for coming. 
We appreciate, by the way, the close relationship and 
cooperation we have with the Forest Service.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
     LEGISLATION, AND COMMUNICATIONS, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. I really appreciate being here today. I am a 
former resident of the city of Golden.
    I do appreciate the opportunity to testify on behalf of the 
Department on H.R. 2766, the Arapaho and Roosevelt National 
Forests Land Exchange Act of 2003. As has already been 
mentioned, H.R. 2766 directs the Secretary of Agriculture to 
exchange to the city of Golden all rights, titles, and 
interests in 9.84 acres of Federal land within the Arapaho 
National Forest, upon receipt of acceptable title to 140 acres 
of non-Federal land. The 140 acres consist of two separate 
parcels, including up to about 80 acres near Evergreen, 
Colorado, known as Cub Creek, and about 60 acres near Argentine 
Pass, Colorado, known as the Argentine Pass. The 60-acre 
Argentine Pass property is made up of 15 patented mining 
claims. The bill modified the exterior boundary of the Arapaho 
National Forest to incorporate the Cub Creek parcel.
    The Department supports the goals of H.R. 2766, but we do 
have a number of recommended changes, and we would like to work 
with the Committee and staff to incorporate some of those.
    First, we recommend that if any cash equalization funds are 
received, that they be deposited pursuant to Public Law 90-171, 
commonly known as the Sisk Act, and, therefore, could be used 
for the acquisition of lands for addition to the National 
Forest System in the State of Colorado.
    Secondly, we note that only the surface estate is being 
offered relative to the Argentine Pass parcel. The management 
of split estates is often very problematic for the Forest 
Service, and we try to avoid that situation if at all possible. 
We understand that it is not the sub-surface minerals that are 
at issue, but the underground water conveyance tunnel and the 
associated access that the city of Golden wishes to protect. We 
would like to work with the Committee and the city to develop 
language which ensures Golden the continued use and operation 
of the tunnel and have both the surface and sub-surface 
interests acquired in fee for the Federal estate.
    H.R. 2766 indicates Congress' intent that the land exchange 
be consummated no later than 120 days after enactment and 
authorizes the city of Golden to construct the water pipeline 
on the 9.84 acres of Federal land prior to the consummation of 
the exchange. We have two concerns regarding that. First, we 
are a little concerned that we may not be able to complete the 
environmental consultation and clearances required for the 
disposal of the Federal property in 120 days. So we would like 
to see that moved to about 180 days. And second, we don't 
support construction prior to the conveyance of the property to 
the city of Golden, for a lot of reasons, including liability.
    The Department believes that the proposed 148-acre 
acquisition which could result from the exchange would be very 
beneficial to the Forest Service and to the public estate. 
Specifically, the acquisition would eliminate a forest 
inholding; it could reduce the cost of forest boundary 
administration; it could increase recreation opportunities; and 
certainly it would ensure permanent public access to a portion 
of the Continental Divide National Scenic Trail, as was 
previously mentioned.
    In conclusion, the Department supports the concept of the 
exchange identified in H.R. 2766 and would like to work with 
the Committee to see the exchange proceed with mutual benefit.
    [The prepared statement of Ms. Estill on H.R. 1723, H.R. 
2707, and H.R. 2766 follows:]

Statement of Elizabeth Estill, Deputy Chief, Programs, Legislation and 
Communications, Forest Service, U.S. Department of Agriculture, on H.R. 
                     1723, H.R. 2707, and H.R. 2766

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Elizabeth Estill, Deputy 
Chief for Programs, Legislation, and Communications, Forest Service. I 
am here today to provide the Department's comments on three bills:
    H.R. 1723--To designate certain National Forest System lands in the 
Commonwealth of Puerto Rico as components of the National Wilderness 
Preservation System, and for other purposes.
    H.R. 2707--To direct the Secretaries of the Interior and 
Agriculture, acting through the Forest Service, to carry out a 
demonstration program to assess potential water savings through control 
of Salt Cedar and Russian Olive on forests and public lands 
administered by the Department of the Interior and the Forest Service.
    H.R. 2766--To direct the Secretary of Agriculture to exchange 
certain lands within the Arapaho and Roosevelt National Forest in the 
State of Colorado.
    The Department supports H.R. 1723. The Department supports the 
goals of H.R. 2766, but has a number of recommended changes. Further, 
the Department supports the goals of H.R. 2707, but has concerns about 
roles and requirements, and believes the work can be achieved within 
existing authorities. We would like to work with the Committee on the 
improvements we recommend to H.R. 2766 and H.R. 2707.
H.R. 1723--Caribbean National Forest Act of 2003
    H.R. 1723 designates approximately 10,000 acres of land in the 
Caribbean National Forest/Luquillo Experimental Forest in the 
Commonwealth of Puerto Rico as the El Toro Wilderness and as a 
component of the National Wilderness Preservation System.
    The bill provides that designation of the Wilderness shall not be 
construed to prevent within the area's boundaries: (1) installation and 
maintenance of hydrologic, meteorological, climatological, or 
atmospheric data collection and transmission facilities when they are 
essential to the scientific research purposes of the Luquillo 
Experimental Forest; (2) construction and maintenance of nesting 
structures, observation blinds, and population monitoring platforms for 
threatened and endangered species; or (3) construction and maintenance 
of trails to such facilities as necessary for research purposes and the 
recovery of threatened and endangered species.
    The Caribbean National Forest encompasses over 28,000 acres of 
land, making it the largest block of public land in the Island of 
Puerto Rico. The Forest, locally known as El Yunque, is one of the most 
popular recreation sites in Puerto Rico and the National Forest System. 
Almost a million tourists, from Puerto Rico, the U.S. mainland, and 
abroad experience this tropical rain forest environment each year.
    It is the only tropical rain forest in the National Forest System 
and by far the friendliest and most accessible in the world. It is also 
home to the Puerto Rican parrot, one of the 10 most endangered birds in 
the world, and nearly 240 species of trees and 120 terrestrial 
animals--four of which are also listed as endangered species.
    The Department supports H.R. 1723. The 1997 revised Land and 
Resource Management Plan for the Caribbean National Forest/Luquillo 
Experimental Forest recommended wilderness designation for the 10,000-
acre El Toro area. We believe the designation of the El Toro Wilderness 
would contribute to a more diverse wilderness preservation system and 
enhance the areas solitude, scenery and pristine qualities. Designation 
of the El Toro Wilderness would be significant. It would become the 
only tropical forest in the National Forest Wilderness System and the 
only wilderness area in Puerto Rico.
H.R. 2707--Salt Cedar and Russian Olive Control Demonstration Act
    H.R. 2707, The Salt Cedar and Russian Olive Control Demonstration 
Act, directs the Secretary of the Interior and the Secretary of 
Agriculture, acting through the Forest Service, to carry out a 
demonstration program to assess potential water savings through control 
of Salt cedar and Russian olive on forests and public lands under their 
jurisdiction.
    The Department agrees with the goals of H.R. 2707, which would 
provide important information for managing two non-native invasive 
species that pose a significant ecological threat in the western United 
States. However, the Department has some concerns and would like to 
work with the Subcommittee to clarify and improve the bill.
    The genus Tamarix (commonly known as Salt cedar) is comprised of 
shrubs or trees native to arid, saline regions of Eurasia and Africa. 
Since the 1830s, ten species have been introduced into North America as 
ornamental plants and for windbreaks. Two species of Salt cedar have 
escaped cultivation and rapidly invaded riparian areas of the western 
United States. Today, Salt cedar has infested over one million acres in 
the western United States, consuming large quantities of water, 
intercepting deep water tables and interfering with natural aquatic 
systems. It disrupts the structure and stability of native plant 
communities and degrades native wildlife habitat.
    Russian olive (Elaeagnus augustifolia) is also a native of southern 
Europe and Western Asia that was first introduced in the late 1800s as 
an ornamental tree and windbreak. Although it is a non-native invasive 
species, Russian olive is a popular and hardy plant that is sold 
commercially for landscaping purposes. However, as its impact to native 
species has become evident, it has been declared a noxious species in 
states such as Utah, and sales have been banned in states such as 
Colorado. Like Salt cedar, Russian olive is a fast growing plant that 
can out-compete native vegetation and tax water reserves.
    To manage invasive species, the Forest Service uses existing 
authorities to coordinate projects at the Federal, State, and local 
levels through its National Forest System, Research and Development, 
and State and Private Forestry Deputy Areas. The Forest Service 
participates with other Federal agencies in the National Invasive 
Species Council (NISC), established by Executive Order 13112. The 
Agency also participates in the Federal Interagency Committee for the 
Management of Noxious and Exotic Weeds (FICMNEW) to manage invasive 
plants. The NISC and FICMNEW continue to work collaboratively with 
local, State, Tribal, and regional interests to expand partnerships and 
coordination efforts among all stakeholders.
    Section 3 of H.R. 2707 directs the Secretary of the Interior, in 
consultation with the Secretary of Agriculture through the Forest 
Service, to complete an assessment of current knowledge concerning Salt 
cedar and Russian olive invasion. It also calls for at least three 
projects to demonstrate and evaluate the most effective methods to 
control these invasive species. The bill specifies that no project may 
exceed $7,000,000 and that the Federal share of the costs shall be no 
more than 65 percent of the total cost. The authorized funding is not 
in the President's budget and therefore must be considered within 
existing resources. The actions outlined in the bill can be achieved 
within existing authorities.
    We would like to work with the Subcommittee and the Department of 
the Interior to:
    <bullet> LClarify the roles of the Departments and Agency 
referenced in the bill,
    <bullet> LSpecify components and requirements of the assessment 
report, and
    <bullet> LDevelop criteria for selection of the demonstration 
project areas.
    I commend the Subcommittee for addressing the ecological problems 
posed by these two non-native invasive species. The Subcommittee has 
recognized that the invasive species challenge to our Nation is 
enormous, and land managers and communities are stretching their 
limited resources significantly to address it. Increased understanding 
of the impact of these species on the quantity of surface and 
groundwater would advance our Nation's ability to address their 
ecological consequences.
H.R. 2766--Arapaho and Roosevelt National Forests Land Exchange Act of 
        2003
    H.R. 2766 directs the Secretary of Agriculture to exchange to the 
City of Golden, Colorado all right, title and interest in 9.84 acres of 
Federal land within the Arapaho National Forest, upon receipt of 
acceptable title to 140 acres of non-Federal land. The 140 acres 
consist of two separate parcels, including 80 acres near Evergreen, 
Colorado known as Cub Creek and 60 acres near Argentine Pass, Colorado 
known as Argentine Pass. The 60-acre Argentine Pass property is made of 
15 patented mining claims. The bill modifies the exterior boundary of 
the Arapaho National Forest to incorporate the Cub Creek parcel.
    The bill requires the exchange values to be equalized. If the non-
Federal parcel market value exceeds the approved market value of the 
Federal land, the values may be equalized by reducing the size of the 
Cub Creek non-Federal parcel or with a cash equalization payment 
without regard to the cash equalization limitation of 43 U.S.C. 
1716(b), as amended.
    If the Federal land market value exceeds the market value of the 
Cub Creek non-Federal parcel, the values shall be equalized by the 
Secretary preparing a statement of value for the Argentine Pass non-
Federal parcel and utilizing as much of such contributory value as is 
necessary as a credit to equalize value. Argentine Pass lands not 
needed to balance the exchange values will be donated to the Forest 
Service. In the event the Secretary declines to accept the Argentine 
Pass lands for any reason, Golden shall make a cash equalization 
payment to the Secretary as necessary to equalize the values of the 
Federal land and the Cub Creek parcel. We recommend that any cash 
equalization funds received be considered money received and deposited 
pursuant to Public Law 90-171 (16 U.S.C. 484 (a)), commonly known as 
the ``Sisk Act,'' and may be used, without further appropriation, for 
the acquisition of lands for addition to the National Forest System in 
the State of Colorado.
    Additionally, we note that only the surface estate is being offered 
relative to the Argentine Pass parcel. The management of split estates 
is problematic. We understand that it is not the minerals at issue but 
an underground water conveyance tunnel and associated access that the 
City of Golden wishes to protect. We prefer to acquire both surface and 
subsurface interests, in fee, and are willing to work with the 
Committee and the City to develop language which ensures continued use 
and operation of the tunnel.
    H.R. 2766 indicates Congress' intent that the land exchange be 
consummated no later than 120 days after enactment and authorizes the 
City of Golden to construct a water pipeline on the 9.84 acres of 
Federal land immediately upon enactment and prior to the consummation 
of the exchange. We are concerned that we may not be able to complete 
environmental consultation and clearances required for the disposal of 
the Federal property in 120 days. We request extending this timeframe 
to 180 days. We also do not support construction occurring prior to 
conveyance of this property to the City of Golden. At the very least, 
we would expect that the City would be required to operate under a 
special use permit as long as the property remains in Federal 
ownership. Our preference is to delay construction of the pipeline 
until the conveyance is completed.
    H.R. 2766 directs the City of Golden to pay for any necessary land 
surveys and appraisals. Further, the bill authorizes and directs the 
Secretary to sell the Federal land to Golden at its appraised value, if 
the land exchange cannot be consummated for any reason.
    The Department does not object to H.R. 2766 with changes 
recommended above.
    Public interest could also be served by the Arapaho National Forest 
acquisition of the 140 acres of non-Federal land. Specifically, the 
acquisition would eliminate a forest inholding, and could: reduce cost 
of forest boundary administration: increase recreation opportunities: 
and ensure permanent public access to a portion of the Continental 
Divide National Scenic Trail. The Department supports the concept of 
the exchange identified in H.R. 2766 and would like to work with the 
Committee to see this exchange proceed with mutual benefit.
Conclusion
    This concludes my statement. We look forward to working with the 
Committee on making the suggested modifications as noted above, and I 
would be happy to answer your questions.
                                 ______
                                 
    Mr. McInnis. Thank you very much.
    Well, Mayor, I appreciate very much, Mayor Baroch, for you 
coming over. It is a wonderful community you are in. You may 
proceed.

            STATEMENT OF CHARLES J. BAROCH, MAYOR, 
               CITY OF GOLDEN, STATE OF COLORADO

    Mr. Baroch. Thank you very much for allowing me to come 
before the Committee. My name is Charles Baroch. I am mayor of 
the city of Golden. I am here to testify in favor of H.R. 2766 
and to request that it be processed into law at the earliest 
possible date.
    As some of you may be aware, the city of Golden is in the 
process of selling approximately 5500 acres of land in Clear 
Creek County, known as Beaver Brook property, to the U.S. 
Forest Service. The purpose of that sale is twofold; first, to 
bring the valuable land into Forest Service ownership for 
general public use and enjoyment and to protect a wildlife 
habitat, and second, to raise funds to enable Golden to enhance 
its water supply and storage system.
    As I am sure all of you are aware, Colorado and much of the 
West has been experiencing a very severe drought over the past 
few years. And even though we have received some relief this 
spring, the City feels it is our responsibility to augment our 
water supply for future emergencies and future generations. To 
achieve that goal, just last month the City Golden broke ground 
on the construction of a dam for our new water storage 
reservoir in an existing gravel quarry. When completed, the new 
reservoir will be able to store in excess of 1500 acre-feet of 
water and will increase our existing water storage capacity by 
approximately 400 percent. This is approximately a 90-day 
supply for the city of Golden in its peak season.
    While a new reservoir is being constructed entirely on land 
owned by the City, an approximately 125-foot length of pipeline 
needed to run the water from the West Clear Creek to the 
reservoir needs to cross a small corner of national forest land 
along an existing ditch line. And we need to start building 
that pipeline this fall.
    When we approached the Forest Service about this pipeline, 
and after some discussion with them and others, it was agreed 
by all concerned that a land exchange would be the best option 
to achieve the desired result. The reasoning was the land we 
need from the Forest Service is not especially useful to the 
public because of its odd configuration and topography, whereas 
the land that we can offer the Forest Service in exchange is 
highly desired by them for public purposes.
    Accordingly, we have developed the land exchange proposal 
that is before you today as H.R. 2766. In that exchange the 
city of Golden would receive a 9.84-acre delta wing-shaped 
parcel of land from the Forest Service and in return would give 
the Forest Service up to 80 acres of land which they desire to 
acquire in the Cub Creek drainage in Park County, near 
Evergreen, Colorado. In addition, we are willing to donate the 
surface estate of 61 acres to the Forest Service along the 
Continental Divide in Clear Creek and Summit counties. The 61 
acres is traversed by the Continental Divide National Scenic 
Trail and also includes an access route to the trail.
    If for some reason the land exchange cannot be consummated, 
H.R. 2766 directs the Forest Service to sell us the 9.84-acre 
parcel at full fair market value, and use the proceeds of the 
sale to buy other lands of the Agency's choosing in the State 
of Colorado.
    Finally, the bill authorizes us to construct the pipeline 
along the 125 feet of national forest land immediately upon the 
bill's enactment. We need that authority in order to complete 
the pipeline this fall and begin filling the reservoir this 
spring.
    Mr. Chairman, we have come to Congress to both expedite 
this exchange and because of minor forest boundary changes 
needed to enable the Forest Service to acquire land which we 
will convey to them near Evergreen. In addition, should the 
exchange fall through due to title problems with any lands 
involved, it is imperative that Congress direct the land be 
sold to us at the earliest date possible. I note the land 
exchange as directed by H.R. 2766 has been endorsed by Clear 
Creek County, Summit County, and Park County boards of county 
commissioners and also by the nonprofit Continental Divide 
Trail Alliance, which is interested in seeing the land along 
the trail acquired by the Forest Service.
    I wish to thank Congressmen Bob Beauprez and Mark Udall for 
introducing this legislation, and you, Mr. Chairman, for 
scheduling a hearing so quickly. This land exchange is very 
important to the city of Golden. We are deeply appreciative of 
your efforts to help us augment our municipal water supply.
    I will be happy to answer any questions you or other 
members of the Subcommittee might have. Thank you.
    [The prepared statement of Mr. Baroch follows:]

         Statement of The Honorable Charles J. Baroch, Mayor, 
                 City of Golden, Colorado, on H.R. 2766

    Chairman McInnis & Members of the Subcommittee,
    My name is Charles J. Baroch and I am the Mayor of the City of 
Golden, Colorado. I appear before you today to testify in favor of H.R. 
2766, and to request that it be processed into law at the earliest 
possible date.
    As some of you may be aware, the City of Golden is in the process 
of selling approximately 5,500 acres of land, known as the Beaver Brook 
property, to the U.S. Forest Service. The purpose of that sale is 
twofold. First to bring valuable lands into Forest Service ownership 
for general public use and enjoyment, and second to raise funds to 
enable our City to enhance its water supply and storage system. As I'm 
sure all of you are aware, Colorado has been experiencing a very severe 
drought over the past few years, and even though we have received some 
relief this year, the City feels it is our responsibility to augment 
our water supplies for future emergencies.
    To achieve that goal, just last month, the City of Golden broke 
ground on construction of a new water storage reservoir in an existing 
gravel quarry near the West Fork of Clear Creek, approximately 25 miles 
west of Golden. When completed, the new reservoir will be able to store 
in excess of 1,800 acre feet of water and will increase our existing 
water storage by approximately 400%.
    While the new reservoir is being constructed entirely on land owned 
by the City, an approximate 125 foot length of the pipeline needed to 
run water from West Clear Creek to the reservoir needs to cross a small 
corner of National Forest land along an existing ditch line, and we 
need to start building the pipeline this fall.
    When we approached the Forest Service about this pipeline, and 
after some discussion with them and others, it was agreed by all 
concerned that a land exchange would be the best option to achieve the 
desired result. The reasoning was that the land we need from the Forest 
Service is not especially useful to the public because of its odd 
configuration, whereas the land that we can offer the Forest Service in 
an exchange is highly desired by them for public purposes.
    Accordingly, we have developed the land exchange proposal that is 
before you today in H.R. 2766. In that exchange, the City of Golden 
would receive a 9.84 acre delta-wing shaped parcel of land from the 
Forest Service, and in return, we would give the Forest Service up to 
80 acres of land which they desire to acquire in the Cub Creek drainage 
near Evergreen, Colorado. In addition, we would donate the surface 
estate of 61 acres to the Forest Service along the Continental Divide 
in Clear Creek and Summit Counties. The 61 acres is traversed by the 
Continental Divide National Scenic Trail, and also includes an access 
route to the Trail.
    If for some reason the land exchange cannot be consummated, H.R. 
2766 directs the Forest Service to sell us the 9.84 acre parcel at full 
fair market value and to use the proceeds of the sale to buy other 
lands of the agency's choosing in the State of Colorado.
    Finally, the bill authorizes us to construct the pipeline across 
the 125 feet of National Forest land immediately upon the bill's 
enactment. We need that authority in order to complete the pipeline 
this fall and begin filling the reservoir this spring.
    Mr. Chairman, we have come to Congress to both expedite this 
exchange and because a minor forest boundary change is needed to enable 
the Forest Service to acquire the lands we will convey to them near 
Evergreen. In addition, should the exchange fall through due to title 
problems with any of the lands involved, it is imperative that Congress 
direct that the land be sold to us at the earliest date possible.
    I note that the land exchange directed by H.R. 2766 has been 
endorsed by the Clear Creek County, Summit County and Park County 
Boards of County Commissioners, and also by the non-profit Continental 
Divide Trail Alliance, which is interested in seeing the land along the 
Trail acquired by the Forest Service.
    I also wish to thank Congressmen Bob Beauprez and Mark Udall for 
introducing this legislation, and you, Mr. Chairman, for scheduling a 
hearing so quickly. This land exchange is very important to the City of 
Golden, and we are deeply appreciative of your efforts to help us 
augment our municipal water supply.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the Subcommittee might have.
                                 ______
                                 
    Mr. McInnis. Thank you, Mayor. And again, thank you for 
traveling the distance to testify in front of the Committee.
    I will open it up for questions. Mr. Rehberg? Mr. Udall?
    Mr. Mark Udall. Thank you, Mr. Chairman. And I wanted to 
thank you for holding this hearing. The bills on today's agenda 
are quite different, but each is a good measure. I am biased as 
a cosponsor of most of them, but I am really appreciative that 
the Subcommittee is beginning the process of moving them 
forward.
    In particular, I want to thank the Chairman for the 
expedited treatment that is being given to H.R. 2766, which my 
colleague Mr. Beauprez and I introduced just last week. The 
bill is very important for our State, very important for the 
city of Golden, so it is excellent to have it on today's 
agenda. And I am hoping that when we get back from our August 
break we can take up some more bills dealing with the 
management of national forests in Colorado, such as the bills I 
mentioned to you, Mr. Chairman, in my recent letter.
    And I want to thank you again for holding the hearing at 
this time. I don't have any questions.
    Mr. McInnis. Mr. Pearce? Any questions? Go ahead. Mr. 
Renzi?
    Mr. Renzi. Thank you, Mr. Chairman.
    Mr. McInnis. Go ahead.
    Mr. Renzi. Mr. Chairman, I am grateful. Thank you. I enjoy 
being around all these Coloradans today and am willing to do 
whatever it takes to stay in the good graces of my Chairman.
    I am just interested in learning something from you, 
though, as a freshman here. Did they look at the option of an 
easement at all, and how would that play out, rather than--it 
seems like you are giving up so much.
    Mr. Baroch. Yes, we did look at the option of an easement, 
and through the cooperation of the Forest Service, they 
recommended the land transfer, or land exchange. With an 
easement, you never know what eventually might happen in future 
generations. And by taking firm title to the land, then we have 
the option of going in and working on the tunnel, the drainage 
ditch, the water pipeline as we wish to maintain it, whatever, 
expand it if we have to, without having to go through 
additional dealings with the National Forest Service. So that 
was discussed. We talked about that option, and it was the 
agreement of both parties that a land swap was probably the 
best approach to take.
    Mr. McInnis. Mr. Beauprez?
    Mr. Beauprez. Thank you, Mr. Chairman. Just a couple of 
quick questions, if I might. First to Ms. Estill.
    You mentioned a couple of things I would like to probe. The 
subsurface rights--I understand if you can, you would like to 
have them all--my understanding that the City's pipeline 
already goes through the Argentine Pass property. And for the 
reasons that I think brought us to the point of wanting a sale 
as opposed to an easement, it seems to make sense to me for the 
City to maintain those subsurface rights. I would like you to 
explain exactly why the Forest Service is going to--you are 
not--the Forest Service doesn't anticipate any mining or 
drilling, certainly, up there for oil or gas?
    Ms. Estill. Well, we don't actually know which of the 
parcels--we haven't been out on the ground with Golden and 
looked at those parcels to see what is there. But generally, 
no, we aren't expecting any difficulties with mining of 
minerals. It really would be with--we think that Golden's 
interest in keeping the subsurface, as you stated, is to be 
able to maintain that tunnel. We believe that we could put in 
the legislation the ability to maintain that tunnel in the 
legislation, and then have the subsurface rights. It just makes 
it cleaner for us if we have the subsurface with the surface, 
and that is generally what we like to do.
    Mr. Beauprez. You are open to working that out?
    Ms. Estill. We are certainly open to working that out.
    Mr. Beauprez. And I understand, I guess, some of your 
concern about the timing of all this. But given the Sisk Act 
and the provisions of this bill that if for some reason this 
land swap falls apart, the land will be sold to the city of 
Golden, you have committed to that, the cash exchange. Why the 
delay, then, in allowing them to move forward? Because I am 
going to ask the Mayor in just a second what happens if they 
don't get to go there pretty quick.
    Ms. Estill. Well, absent specific language that exempts the 
Forest Service from obtaining clearances and conducting 
analysis required by the Endangered Species Act, the National 
Historic Preservation Act, and other environmental laws, we 
would proceed with applying for just going through all of those 
processes in advance of disposing the land. The only probable 
or likely sticking point might be, as we exchange out of this 
almost-10 acres, it is considered lynx habitat, and we will 
have to go through consultation with Fish and Wildlife Service. 
And conceivably, that could slow things down without specific 
provisions in this legislation.
    Mr. Beauprez. Mr. Mayor, what happens if--I know you 
explained to me once that time is really critical. What happens 
if you can't get going with construction?
    Mr. Baroch. Well, if we don't get construction, obviously, 
we won't begin filling the reservoir until we have the pipeline 
in place. We have excess water during the wintertime out of 
Clear Creek that we don't use right now. We could start storing 
that water in the wintertime and then in the spring, when the 
runoff is so heavy, generally there is excess capacity in Clear 
Creek. Therefore, we would like to begin storing that water 
immediately.
    Mr. Beauprez. Why don't you take just a second and explain 
your water situation last summer.
    Mr. Baroch. That is a very complicated issue.
    Mr. Beauprez. How short did you get?
    Mr. Baroch. We had a half of our water supply cut out from 
under us under a decree by the Water Court that dropped 
priority 5 water down below priority 9, and as a consequence, 
we went into severe restrictions during September and October 
until November, when we got some additional--
    Mr. Beauprez. How severe?
    Mr. Baroch. We were down--typically in the summertime, we 
run around 7.5 million gallons a day through our system for 
watering our lawns and our people. We were down to 2.5 million 
gallons a day. So we terminated all outdoor watering. The only 
watering you could do was if you saved your water from taking a 
shower. Before it warmed up, you could take it out and water 
your vegetables or your flower garden. So we were--
    Mr. Beauprez. This storage is pretty critical?
    Mr. Baroch. This storage is very critical to us.
    Mr. Beauprez. Thank you. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you. That concludes our testimony. 
Again, I appreciate that.
    And, Ms. Estill, I do want to pass on to the U.S. Forest 
Service--I am not clear whether those forest firefighters that 
we lost yesterday were with the Forest Service or the BLM, but 
at any rate, if they were yours, we send on our deepest 
condolences. This Committee has been very active in that fire 
situation, but those are brave young men and women we have out 
there on the front line. So we pass on our condolences.
    Ms. Estill. Thank you very much.
    Mr. Mark Udall. Mr. Chairman, if I could just--if I might, 
Mr. Beauprez mentioned this bill is supported by a number of 
local governments and groups, and I would ask that their 
letters of support be included in the record of today's 
hearing.
    Mr. McInnis. Without objection, so ordered. The panel is 
excused. Thank you very much.
    [NOTE; Letters of support for H.R. 2766 have been retained 
in the Committee's official files.]
    Mr. Rehberg. [Presiding] We now begin the hearing on H.R. 
1723, the Caribbean National Forest Wilderness Act of 2003.
    Mr. Rehberg. The sponsor of the bill, Resident Commissioner 
Acevedo-Vila of Puerto Rico, could not be with us today. 
Without objection, his statement will be submitted for the 
record.
    [The prepared statement of Mr. Acevedo-Vila follows:]

 Statement of Resident Commissioner Anibal Acevedo-Vila, a Delegate in 
                Congress from Puerto Rico, on H.R. 1723

    Mr. Chairman, I greatly appreciate you affording the Caribbean 
National Forest Wilderness Act of 2003, H.R. 1723, this hearing.
    I would also like to thank the Ranking Member of the Committee, 
Representative Nick Rahall, who is an original cosponsor of this bill, 
for his strong support, in addition to the other members of the 
Resources Committee who are cosponsors of this bill.
    I am also thankful for the U.S. Forest Service's presence here 
today. I have developed a good working relationship with the Forest 
Service, both locally in Puerto Rico and in the national office, and I 
appreciate Deputy Chief Elizabeth Estill sharing with us the 
administration's position on the bill today.
    As some of you may know the Caribbean National Forest, the only 
tropical rainforest in the national forest system, celebrated its 100th 
anniversary earlier this year. Twenty-seven years before this, in 1876, 
Spain's King Alfonso XII proclaimed this forest a Crown Reserve, making 
this forest, know locally as El Yunque, one of the first forest 
reserves in the western hemisphere.
    Due to the topography of El Yunque, unsuitable forest composition 
for timber, and conservation by the Forest Service, El Yunque, and to a 
greater degree the lands to be designated as the El Toro Wilderness in 
this bill, maintain the characteristics that they had 100 years ago. El 
Yunque contains virtually all of the primary forest in Puerto Rico, and 
as such represents a unique cultural and natural heritage for Puerto 
Ricans. The Wilderness Act was passed to protect just these types of 
lands--where the forest has been affected primarily by the forces of 
nature, with the imprint of man's work substantially unnoticeable. 
Therefore, I believe that wilderness protection is appropriate and in 
line with the history of these lands and the value they contribute to 
Puerto Rico.
    However, these beliefs are not solely mine. When the Forest Service 
revised the management plan for El Yunque, the public widely supported 
wilderness designations on the forest. As the population density in 
Puerto Rico is among the highest in the nation, large, undeveloped 
tracts of land are increasingly rare, while their value to the public 
has grown significantly. Public support for wilderness led the forest 
plan to nearly double the wilderness recommendation from 5,254 acres to 
what is included in this bill, over 10,000 acres. What my bill proposes 
to designate as wilderness is identical to that recommendation in the 
Caribbean National Forest's revised land and resource management plan, 
and would create the first wilderness area in El Yunque. It should also 
be noted that there are no competing interests, such as timber harvest, 
road construction, or water development, in the lands to be designated 
as wilderness.
    The El Toro area to be designated as wilderness through this bill 
is also essential habitat for the Puerto Rican parrot. One of the ten-
most endangered birds in the world and a Federally listed endangered 
species, the parrot requires large, undeveloped tracts of land for its 
survival. It is for this reason that the only remaining wild population 
of this bird, currently about 25 birds, is confined to El Yunque. 
Taking into consideration the management needs of the Puerto Rican 
parrot, this legislation permits nesting construction and watching and 
monitoring activity to occur in the proposed wilderness area. In 
addition to the Puerto Rican parrot, no fewer than eight other 
threatened and endangered species call El Yunque home. Many other 
species are endemic only to El Yunque, and the forest also provides 
respite to dozens of migratory bird species. Protecting the El Toro 
area as wilderness will ensure that the habitat of these species 
remains undeveloped and well suited for their survival.
    Water conservation is another important value of El Yunque. The 
forest is comprised of 8 major watersheds that provide water for nearly 
800,000 Puerto Ricans. Weather events in El Yunque, such as rainstorms 
experienced earlier this year, lead to mudslides often around roads, 
that impact water quality for both species and human consumers. Through 
wilderness protection, much of this forest will be protected from road 
development that can accelerate this type of erosion and water 
impairment.
    The El Toro area currently has a network of trails that permit an 
array of recreational opportunities that will continue under wilderness 
designation. Almost one million tourists a year currently visit and use 
El Yunque. Local residents and tourists alike hike, swim, climb El Toro 
peak--the highest peak in El Yunque, bird watch and otherwise take 
advantage of the wild nature of the proposed wilderness area.
    I believe that the characteristics and values of the proposed El 
Toro Wilderness Area are very much in concert with the intent and 
purpose of the Wilderness Act. Solitude, the absence of the imprint of 
man, and nationally unique ecological and biological features comprise 
El Yunque and the proposed wilderness area. It would be fitting that 
the first wilderness designation in El Yunque be El Toro, as it 
encompasses the qualities of the forest, and should be protected in 
that nature for perpetuity.
    Again, I very much appreciate the Chairman's scheduling of this 
hearing for this bill and other worthy legislation. I appreciate the 
support for this bill that my colleagues have provided, and I encourage 
the support of this Subcommittee, and the Resources Committee in 
considering and approving this bill.
                                 ______
                                 
    Mr. Rehberg. We will now hear from Panel II on H.R. 1723. 
Elizabeth Estill is Deputy Chief of Programs, Legislation, and 
Communications at the United States Forest Service. Please go 
ahead.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
     LEGISLATION, AND COMMUNICATIONS, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. Thank you for the opportunity to provide USDA's 
views on H.R. 1723. The Department supports H.R. 1723, which 
designates approximately 10,000 acres of land in the Caribbean 
National Forest Luquillo Experimental Forest in the 
Commonwealth of Puerto Rico as the El Toro Wilderness and as a 
component of the National Wilderness Preservation System.
    The Caribbean National Forest encompasses over 28,000 acres 
of land, making it the largest block of public land in Puerto 
Rico. It is the only tropical rain forest in the National 
Forest system and, by far, the friendliest and most accessible 
in the world. Almost a million people visit the Caribbean 
National Forest each year from Puerto Rico, from the mainland, 
and from abroad. It is the home to the Puerto Rican parrot, one 
of the ten most endangered birds in the world, and nearly 240 
species of trees and 120 terrestrial animals, four of which are 
also listed as endangered species.
    The 1997 Revised Land and Resource Management Plan for the 
Caribbean National Forest recommended wilderness designation 
for the 10,000-acre El Toro area. We believe that the 
designation of the El Toro Wilderness will contribute to a more 
diverse national wilderness preservation system.
    In conclusion, the Department of Agriculture 
enthusiastically supports H.R. 1723.
    This concludes my testimony. I am willing to answer any 
questions.
    Mr. Rehberg. Are there any questions from the Committee? 
Mr. Udall?
    Mr. Mark Udall. Mr. Chairman, I apologize. I am moving 
slowly since I have already seen you this morning, but--we had 
those late votes. I don't have any questions at this time. 
Thank you.
    Mr. Rehberg. OK. Thank you, Ms. Estill. I might remind the 
Committee that if they have any additional questions, the 
hearing record will be left open for 10 days and you will have 
an opportunity to submit those questions. And Ms. Estill, if 
you could respond in writing, we would appreciate that.
    Ms. Estill. I would be glad to.
    Mr. Rehberg. I'd like to introduce the witnesses for H.R. 
1005. On Panel III we have Mr. Chris Kearney, Deputy Assistant 
Secretary, Policy and International Affairs, Department of the 
Interior; and the Honorable Don Davis, Commissioner, Rio 
Blanco, Colorado.
    Let me remind the witnesses that under the Committee rules 
you must limit your oral statements to 5 minutes, but your 
entire statement will appear in the record.
    I now recognize Mr. Kearney for his statement.
    [The prepared statement of Mr. McInnis on H.R. 1005 
follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                Forests and Forest Health, on H.R. 1005

    At the outset, I want to welcome my good friend, Commissioner Don 
Davis, here today. This is the second time in as many years that Don 
has come out to preach the gospel of full-funding for PILT. Don, here's 
to hoping that the next time you come to Washington, DC the President 
will have signed this bill into law and you can talk about something 
other than PILT. Welcome Don.
    Colleagues, when Congress enacted Payment In Lieu of Taxes (PILT) 
and the Refuge Revenue Sharing Act, it made both an admission and a 
promise. The admission that Congress made was that it would be 
fundamentally unfair for the Federal Government to own vast tracks of 
land within a county or municipality--land that would otherwise provide 
local revenue in the form of property tax to fund roads, schools and 
other important social services--and not reimburse the county for those 
revenue losses. Remember, the Federal Government's holdings are 
generally immune from state and local taxation. And so Congress 
affirmatively recognized that many localities would quite literally 
whither on the vine without some form of compensation from the Federal 
Government.
    With that admission in mind, Congress made a promise--to provide 
just and reasonable compensation to the local governments whose tax 
base is eroded by a large Federal land ownership presence. That promise 
was embodied and codified in PILT and the Refuge Revenue Sharing Act, 
which set out a reimbursement formula under which localities would be 
compensated.
    Unfortunately, Congress has rarely been willing to fund PILT and 
the Refuge Revenue Fund at the levels authorized under these formulas. 
You couldn't say that Congress totally broke its promise, but there's 
no question we've been fudging--big time. In Fiscal Year 2003, for 
example, Congress shortchanged PILT in excess of $100 million, and the 
Refuge Revenue Sharing several million more. In the scheme of the 
United States Treasury, this may not seem like a big deal. 
Representatives of counties and other local governments--including my 
good friend Don Davis who's here to testify today--will tell you 
otherwise. In times when state and county governments are cash-
starved--and schools and hospitals and social services suffer because 
of it--this mammoth shortfall strikes even deeper at rural communities.
    Now there are some who say we can't afford permanent full funding 
of PILT. I say we can't afford not to. PILT and the Refuge Revenue 
Sharing Act fund the nuts-and-bolts programs that keep communities 
strong. These dollars go directly to classrooms, to paving the 
expansion of the local county road, to keeping cops on the street, and 
to funding critical social service programs. This is mom-and-apple pie 
stuff, Colleagues, that's being shortchanged because of Congress and 
this and previous Administration's historic propensity to fudge on its 
word.
    H.R. 1005, the PILT and Refuge Revenue Sharing Permanent Funding 
Act, would rectify this inequity by doing just what the title 
suggests--fully funding both programs without further appropriation. 
The bill solidifies Congress' promise to our friends in local 
government in ironclad terms by guaranteeing that appropriated moneys 
will always equal the levels authorized by those complicated formulas.
    No more partial funding, no more fudging on our word. H.R. 1005 
settles the score once and for all for communities and local 
governments.
                                 ______
                                 

STATEMENT OF CHRIS KEARNEY, DEPUTY ASSISTANT SECRETARY, POLICY/
     INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Kearney. Thank you, Mr. Chairman, and good morning, 
members of the Committee. I am pleased to have the opportunity 
to testify today on H.R. 1005, a bill that would make the 
Bureau of Land Management's Payment In Lieu of Taxes Program 
and the Fish and Wildlife Service's Refuge Revenue Sharing 
Program mandatory.
    A hearing on PILT took place almost a year ago today, on 
July 25, 2002, before this Subcommittee, and our position on 
this bill remains unchanged. The administration strongly 
supports the PILT and RRS programs and views them as high 
priorities. But the administration is strongly opposed to 1005 
because it would force the Federal Government to either raise 
taxes or cut into other programs that are integral to the 
President's budget and important for the American public.
    Now, the President's Fiscal Year 2004 budget request, 
however, demonstrates our clear commitment to the PILT program. 
The administration requested $165 million in Fiscal Year 2003 
for PILT, and $200 million in 2004--which is an increase of $35 
million. Furthermore, while the total amount requested for all 
programs by the Department for Fiscal Year 2004 represents an 
approximately 3.3 percent increase from the prior year, the 
request for PILT is more than 21 percent over last year's 
request for this important program, reflecting our continued 
commitment and obligation to the PILT program even in the 
context of other significant budget priorities.
    While we recognize the importance of the program, it should 
not be viewed in isolation from other Departmental and Federal 
programs that do bring or will bring benefits to the counties 
in the future. Examples include funding for rural fire 
assistance and our efforts to work with gateway communities to 
increase tourism.
    This year some counties received slightly reduced PILT 
payments to adjust for increased revenue received during the 
previous fiscal year under the Secure Rural Schools and 
Community Self-Determination Act. This act provides payments to 
compensate certain counties for declining timber receipts. The 
combination of PILT payments and payments under Secure Rural 
Schools Act, however, will result in higher overall payments 
for the affected counties.
    I would also like to note that we continue to engage in 
discussions with the National Association of Counties 
concerning issues associated with the allocation formula, and 
we believe those issues should be addressed before considering 
such a significant action as converting them to permanent 
payments.
    In conclusion, the administration recognizes that these 
payments are important to local Governments, sometimes 
comprising a significant portion of their operating budgets. 
The PILT and RRS monies have been used for critical functions, 
such as local search and rescue operations, road maintenance, 
law enforcement, schools, and emergency services. These 
expenditures often support the activities of people from around 
the country who visit or recreate on Federal lands. The 
Department looks forward to continuing to work cooperatively 
with the communities on these important issues.
    This concludes my prepared statement. I would be happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Kearney follows:]

 Statement of Chris Kearney, Deputy Assistant Secretary for Policy and 
  International Affairs, U.S. Department of the Interior, on H.R. 1005

    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to testify today on H.R. 1005, a bill that would make the 
Bureau of Land Management's (BLM) Payments-in-Lieu of Taxes (PILT) 
Program and the Fish and Wildlife Service's Refuge Revenue Sharing 
(RRS) Program mandatory. A hearing on PILT took place almost a year ago 
today on July 25, 2002, before this Subcommittee. Our position on this 
bill remains unchanged. The Administration strongly supports the PILT 
and RRS programs and views them as high priorities, but the 
Administration is strongly opposed to H.R. 1005 because it would force 
the Federal Government to either raise taxes or cut into other programs 
that are integral to the President's budge and important for the 
American people.
Background
    The PILT Act (P.L. 94-565) was passed by Congress in 1976 to 
provide payments to local governments in counties where certain Federal 
lands are located within their boundaries. PILT is based on the concept 
that these local governments incur costs associated with maintaining 
infrastructure on Federal lands within their boundaries but are unable 
to collect taxes on these lands; thus, they need to be compensated for 
these losses in tax revenues. The payments are made to local 
governments in lieu of tax revenues and to supplement other Federal 
land receipts shared with local governments. The amounts available for 
payments to local governments require annual appropriation by Congress. 
In the past, the BLM has allocated payments according to the formula in 
the PILT Act. In recognition of fact that this program is multi-bureau 
in nature, beginning in FY 2004, funding and management of PILT will be 
administered at the Departmental level. The formula takes into account 
the population within an affected unit of local government, the number 
of acres of eligible Federal land, and the amount of certain Federal 
land payments received by the county in the preceding year. These 
payments are other Federal revenues (such as receipts from mineral 
leasing, livestock grazing, and timber harvesting) that the Federal 
Government transfers to the counties.
    The President's FY 2004 budget request demonstrates our commitment 
to PILT. The Administration requested $165 million in FY 2003 for PILT, 
and $200 million in FY 2004, an increase of $35 million. Furthermore, 
while the total amount requested for all programs by the Department for 
FY 2004 represents a 3.3% increase from the prior year, the request for 
PILT is more than 21% over last year's request for this important 
program, reflecting our continued commitment and obligation to the PILT 
program even in the context of other significant budget priorities. 
While we recognize the importance of the PILT program, it should not be 
viewed in isolation from other departmental and Federal programs that 
bring or will bring benefits to counties in the future. Examples 
include funding provided for rural fire assistance and our efforts to 
work with Gateway Communities to increase tourism opportunities.
    This year, some counties received slightly reduced PILT payments to 
adjust for increased revenue received during the previous fiscal year 
under the Secure Rural Schools and Community Self-Determination Act. 
This Act provides payments to compensate certain counties for declining 
timber receipts. The combination of PILT payments and payments under 
the Secure Rural Schools Act, however, will result in higher overall 
payments to affected counties.
    The Refuge Revenue Sharing Act (RRS) (16 U.S.C. 715s) as amended, 
was enacted in 1935. It authorizes payments to be made to offset tax 
losses to counties in which U.S. Fish and Wildlife Service (FWS) fee 
and withdrawn public domain lands are located. The original Act 
provided for 25 percent of the net receipts from revenues from the sale 
or other disposition of products on refuge lands to be paid to 
counties. The Act was amended in 1964 to make it more like the payment-
in-lieu of tax program. The new provisions distinguished between 
acquired lands that are purchased by the Service and lands that are 
withdrawn from the public domain for administration by the Service. For 
fee lands, the counties received 3/4 of 1 percent of the adjusted value 
of the land or 25 percent of the net receipts, whichever was greater, 
with the value of the land to be reappraised every 5 years. They 
continued to receive 25 percent of the net receipts collected on the 
withdrawn public domain lands in their county.
    The Act was amended again in 1978 in order to provide payments that 
better reflected market land values to counties with lands administered 
by the Service within their boundaries. The method used to determine 
the adjusted cost of the land acquired during the depression years of 
the 1930's (using agricultural land indices) resulted in continuing low 
land values compared to the land prices that existed in 1978. Also, 
other lands that were purchased during periods of inflated land values 
were found to be overvalued. The Congress decided that the payments did 
not adequately reflect current tax values of the property. It also 
recognized that national wildlife refuges are established first and 
foremost for the protection and enhancement of wildlife and that many 
produce little or no income that could be shared with the local county.
    In the 1978 amendments, Congress chose to distinguish between lands 
acquired in fee and lands withdrawn from the public domain, by 
recognizing that the financial impact on counties tends to be greater 
when lands are directly withdrawn from the tax rolls, rather than when 
the refuge unit is created out of the public domain and has never been 
subject to a property tax. The formula adopted then, and still in 
effect, allows the Service to pay counties containing lands acquired in 
fee the greater of: 75 cents per acre, 3/4 of 1 percent of the fair 
market value of that land, or 25 percent of the net receipts collected 
from the area. If receipts are insufficient to satisfy these payments, 
appropriations are authorized to make up the difference.
    Counties can use funds for any government purpose, and pass through 
the funds to lesser units of local government within the county that 
experience a reduction of real property taxes as a result of the 
existence of Service fee lands within their boundaries. Counties with 
Service lands that are withdrawn from the public domain continue to 
receive 25 percent of the receipts collected from the area and are paid 
under the provisions of the PILT Act.
    I would like to note that many of the same concerns we have 
previously expressed regarding PILT funding hold true for RRS funding 
as well. We continue to engage in discussions with the National 
Association of Counties concerning issues associated with the 
allocation formula and we believe those issues should be addressed 
before considering such a significant action as converting these 
payments to permanent mandatory payments.
    Although the Administration supports the purpose of H.R. 1005, we 
must oppose it for the same reasons that we opposed an identical bill 
last year in the 107th Congress. We support protections for local 
governments against the loss of property tax revenue when private lands 
are acquired by a Federal agency. However, the Administration is 
opposed to creating a new mandatory spending category to fund these 
programs because it would force the Federal Government either to raise 
taxes or cut into other programs that are integral to the President's 
budget and important to the American public.
Conclusion
    The Administration recognizes that these payments are important to 
local governments, sometimes comprising a significant portion of their 
operating budgets. The PILT and RRS monies have been used for critical 
functions such as local search and rescue operations, road maintenance, 
law enforcement, schools and emergency services. These expenditures 
often support the activities of people from around the country who 
visit or recreate on Federal lands. The Department looks forward to 
continuing to work cooperatively with the communities on these 
important issues.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or the other members may have.
                                 ______
                                 
    Mr. Rehberg. Thank you, Mr. Kearney.
    Mr. Davis?

STATEMENT OF HON. DON DAVIS, COMMISSIONER, RIO BLANCO, COLORADO

    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished Subcommittee members, it is 
an honor to appear before you to present this testimony in 
support of H.R. 1005. My name is Don Davis, and I am a county 
commissioner from Rio Blanco County, Colorado. I serve as 
Chairman of the Public Lands Steering Committee of Colorado 
Counties Incorporated, and as president of the Western 
Interstate Region of the National Association of Counties.
    H.R. 1005, the PILT and Refuge Revenue Sharing Permanent 
Funding Act represents a bipartisan effort to provide an 
ongoing, secure source of funding. This legislation, introduced 
in the House by Chairman McInnis, would permanently fund these 
two programs so critical to public land counties. It is 
landmark legislation and should be enacted without delay.
    Counties are the general-purpose local government that must 
provide public services both for the Federal employees and 
their families and for the users of Federal lands. These local 
services include law enforcement, search and rescue, 
firefighting, health care, solid waste disposal, road and 
bridge maintenance, et cetera.
    In 1976, Congress enacted, and President Ford signed, the 
Payment In Lieu of Taxes Act. Under the 1976 PILT formula, 
total payments nationwide averaged about $100 million annually, 
depending on the level established each year in the 
appropriations process. There was no allowance for inflation.
    In 1994 Congress amended the PILT formula at the request of 
the National Association of Counties to recognize inflationary 
costs. Unfortunately, in the intervening 8 years, no 
Presidential budget has requested, nor has any Congress yet 
appropriated, the amount authorized under the revised formula.
    NACo and CCI with to go on record to applaud the members of 
the House of Representatives for requesting a historic $225 
million for PILT in Fiscal Year 2004. That was passed just a 
few days ago. We thank you for your strong support. However, 
though we are grateful for any increased appropriation, we view 
incremental increases as stop-gap measures. PILT should not be 
seen as just another spending program in the BLM, and it should 
not have to compete with worthwhile conservation programs 
within the Interior and related agencies.
    In Colorado, 56 out of the 63 counties contain Federal 
lands. There are a total of 23.6 million entitlement acres of 
Federal lands in Colorado. With annual PILT payment in 2002 of 
approximately $17.6 million, this works out to about 74 cents 
per acre. However, in Rio Blanco County, we have 1.5 million 
acres of Federal land and a PILT payment of $272,412, or about 
18 cents per acre. In Hinsdale County in the southwestern part 
of the State, the situation is even worse. With 676,515 acres 
of Federal land, their PILT payment was only $70,770--about 10 
cents an acre.
    The 676,515 acres of public lands in Hinsdale County 
represent 95 percent of the county. There are only about 37,000 
acres of private land. Three hundred and five miles of 326 
miles of county roads are located on Federal lands. In the 
summer months, the population of Hinsdale County swells as much 
as 20-fold. The influx of recreation-seeking visitors creates 
extreme law enforcement challenges, which carry commensurate 
costs. Local property taxes for the 37,000 acres of private 
land averages $9.91 per acre, compared to 10 cents.
    The National Association of Counties also supports 
permanent funding for the Refuge Revenue Sharing Program 
through H.R. 1005. Federal Wildlife Refuge acreage is not 
automatically PILT-entitled. In fact, if it is acquired by Fish 
and Wildlife Services from private owners, it is not covered by 
PILT. This program is particularly important in the eastern 
States.
    I thank you for the opportunity to testify.
    [The prepared statement of Mr. Davis follows:]

Statement of The Honorable Don Davis, Commissioner, Rio Blanco County, 
Colorado, on behalf of The National Association of Counties & Colorado 
                             Counties, Inc.

    Mr. Chairman, and distinguished Subcommittee members, it is an 
honor to appear before you to present this testimony in support of H.R. 
1005. My name is Don Davis, and I am a County Commissioner from Rio 
Blanco County, Colorado. I serve as Chairman of the Public Lands 
Steering Committee of Colorado Counties, Inc., and as President of the 
Western Interstate Region of the National Association of Counties 
(NACo).
    H.R. 1005, the PILT and Refuge Revenue Sharing Permanent Funding 
Act, represents a bi-partisan effort to provide an ongoing secure 
source of funding for the counties entitled to payments under the 
Payment in Lieu of Taxes Act of 1976. This legislation, introduced by 
my Congressman, Chairman McInnis, would permanently fund this program 
so critical to communities surrounded by Federally managed land.
    The Payments in Lieu of Taxes program has a two-fold purpose: (1) 
to help compensate counties ``in lieu'' of property taxes for the tax 
exempt nature of Federally-owned lands; and (2) to help reimburse 
counties for a portion of the costs of local services impacted by the 
activities on and visitors to the public lands.
    Counties are the general purpose local government that must provide 
public services for both Federal employees and their families and for 
the users of Federal lands. These local services include law 
enforcement, search and rescue, fire fighting, health care, solid waste 
disposal, local recreation programs, road and bridge maintenance, etc. 
There are more than 1900 counties nationwide that are eligible to 
receive PILT.
    In 1976, Congress enacted, and President Ford signed, the Payments 
in Lieu of Taxes Act. It was sponsored by Rep. Frank Evans of Colorado. 
This legislation was based upon a key finding of the Congressional 
Public Land Law Review Commission co-chaired by Rep. Wayne Aspinal of 
Colorado and Rep. Mo Udall of Arizona. Under the 1976 PILT formula, 
total payments nationwide averaged about $100 million annually, 
depending upon the level established each year in the appropriation 
process. There was no allowance for inflation.
    In 1994 Congress amended the PILT formula, at the request of the 
National Association of Counties, to recognize inflationary costs. 
Unfortunately, in the intervening eight years, no President has asked 
for, nor has any Congress appropriated, the full amount authorized 
under the revised formula. This lack of secure funding has been 
particularly distressing for rural public land counties like Rio Blanco 
County and Hinsdale County in Colorado. In the PILT formula there is a 
pro rata payment provision to disperse payment when less than full 
payment is provided. This provision adversely affects counties with 
large holdings of public lands that also have low populations. For 
example, one year the payment for Rio Blanco County actually dropped by 
$12,000 (about 8%) even though overall payment nationwide increased. 
NACo supports an amendment to the statutory formula which would, in 
conjunction with permanent full funding, allow the low-population high-
entitlement-acreage counties to realize more of the benefit from PILT. 
However, even absent such an adjustment to the formula, this is an 
inequity that can largely be corrected by the enactment of H.R. 1005.
    In Colorado, 56 out of 63 counties contain Federal lands. There are 
a total of 23.6 million ``entitlement'' acres of Federal lands in 
Colorado, with annual PILT payment in 2003 of approximately $17.6 
million. This works out to about seventy-four cents per acre.
    However, in Rio Blanco County with 1.5 million acres of Federal 
land, the PILT payment was $272,412, or about eighteen cents per acre. 
In Hinsdale County the situation is even worse. With 676,515 acres of 
Federal land their PILT payment was only $70,770, about ten cents per 
acre.
    The 676,515 acres of public lands in Hinsdale County represents 95% 
of the county. There are only about 37,000 acres of private land. This 
means that 305 miles of the 326 miles of county roads are located on 
Federal lands. In summer months, the population of Hinsdale County 
swells as much as a twenty-fold. The influx of recreation seeking 
visitors creates extreme law enforcement challenges which carry 
commensurate costs. In fact, a former Hinsdale County Sheriff was 
killed on public lands by a poacher. Local property taxes for the 
37,000 acres of private lands averaged $9.91 per acre, compared to the 
ten cents per acre averaged for the PILT payment.
    In Rio Blanco County we have a similar situation. Approximately 500 
miles of the 900 miles of county roads are located on Federal lands. 
The county is impacted by extensive natural resource activities on 
these Federal lands. We have oil and natural gas production, coal 
production, nacholite (or sodium bicarbonate) production, plus 
considerable hunting, fishing and recreation activities. Quite frankly, 
Rio Blanco County cannot adequately keep up with the demand for local 
services. We need your help. Rio Blanco County is also facing the 
future development of the world's richest deposit of oil shale. Shell 
Oil Company is currently operating a research facility in our county 
that looks promising. Development of these critical national resources 
requires extensive infrastructure investment at the local level; 
particularly if the development is going to be done in a manner which 
is sustains important ecological values.
    This year, the state and local governments in Colorado, across the 
west and in fact across the country, face increased fire fighting costs 
due to the high risk of catastrophic forest fires this summer. I am 
concerned that Colorado faces a real threat of more future fires from 
eco-terrorists. We have suffered previous eco-terrorist attacks in 
Eagle County, where a ski lodge was burned, and in Boulder County, 
where a new home was burned. When well-meaning mainstream environmental 
organizations express concern over efforts to reduce fire risk through 
fuel treatment programs outside the wildland urban interface, I fear 
that the more radical fringe groups may initiate eco-terrorist 
activities to stop programs they oppose. In any event, whenever any of 
these fires spread to private lands, suppression becomes a state or 
local responsibility, and a costly one, at that.
    The National Association of Counties also supports fully funding 
the Refuge Revenue Sharing program through H.R. 1005. The acreage in 
wildlife refuges managed by the U.S. Fish & Wildlife Service is not 
automatically PILT entitlement acreage. In fact, if it was acquired by 
the Fish & Wildlife Service from private owners, it is not covered by 
PILT. The Refuge Revenue Sharing program is how local governments are 
compensated for this special category of Federally owned tax-exempt 
land. This program is particularly important in states outside the west 
where most of the wildlife refuges were not carved out of the public 
domain but have been acquired by the Federal Government from private 
landowners. For example, in FY 2003, counties in the State of Maryland 
received over $290,000 in Refuge Revenue Sharing, but only about 
$92,000 in PILT. Similarly, Delaware counties received about $126,000 
in Refuge Revenue Sharing, but only about $3,000 in PILT.
    Some have suggested that PILT does not need to be funded at its 
full authorization because many counties receive payments under 
programs like the Secure Rural Schools and Community Self-Determination 
Act (PL 106-393), thus implying that counties are overpaid under 
Federal programs. Please remember the facts:
    1. LThe National Forests have produced billions of dollars of 
revenues to the Federal treasury in recent years. Furthermore, Title II 
projects under PL 106-393 will add millions more in badly needed 
revenues for Federal forest restoration projects selected 
collaboratively by Resource Advisory Committees.
    2. LNational forest moneys to counties under PL 106-393 are 
dedicated to roads and schools. PILT payments are flexible, 
discretionary general funds, needed to pay for the services counties 
must provide to visitors of these Federal lands and to the lands 
themselves (e.g., public health and safety, search and rescue, solid 
waste treatment and disposal). These two programs serve different, but 
critical functions, yet both relate directly to tax-exempt Federal 
lands.
    3. LPL 106-393 Title I and III payments reduce the amount of PILT 
payments received by a county. By operation of the PILT formula, when 
the Federal Government increases its support for roads and schools, it 
reduces its support of the other Federal land-related local services 
counties must provide. For example, Crook County, Oregon, saw its PILT 
payment drop from $824,141 in FY 2002 to $170,812 in FY 2003! Chelan 
County, Washington, received $1,131,714 last year and only $857,298 
this year. Tehama County, California, dropped from $324,602 to $81,184. 
In rural areas where vast stretches of Federal lands are located, this 
is real money that cannot be replaced.
    The uniqueness of both the Payment in Lieu of Taxes (PILT) program 
and of natural resource revenue sharing programs must be explicitly 
recognized and strictly maintained. PILT must not be confused with the 
various revenue sharing programs which are linked to natural resource 
development and usually have strings attached as to their use.
    NACo believes that Congress was correct to enact PILT and Refuge 
Revenue Sharing legislation to compensate counties for the tax-exempt 
status of Federal lands and to help defray some of the local costs 
associated with activities on these lands. As a county official 
actively involved in NACo's efforts to secure equitable funding for 
these programs, I urge you to approve H.R. 1005. This bi-partisan 
legislation would provide a much needed and secure level of funding of 
annual PILT payment to public land counties throughout the country.
    Thank you for this opportunity to testify.
                                 ______
                                 
    Mr. McInnis. [Presiding] Don, I wasn't here. I was out of 
the room temporarily when you first came up. Thank you very 
much for coming. You have been a terrific participant on these 
issues over the years, and I appreciate very much your service 
as a commissioner up there. I know you are well-respected in 
your area.
    Do we have any questions by members of the panel? Go ahead, 
Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I would direct a 
question at Mr. Kearney.
    My district is about 9 hours to get across it, and that is 
at 75 miles an hour. It is very large, it is very rural. One of 
our western counties, Catron County, for example, has about 
18,000 square miles. New Mexico is 60 percent public lands. The 
budgets in our counties with a high percent of public lands are 
being decimated. In Catron County alone we have lost 250,000 
animal units. That is a tremendous piece of their tax base to 
run the functioning of the county.
    If you think that the PILT payments should not be fully 
funded, what are these counties to do as they continue to be 
affected by the Endangered Species--that is taking--your 
Department, in a lot of cases, is affecting the tax base 
tremendously. Then you have people who are moving into these 
areas and voluntarily taking animal units off. Ted Turner has 
bought a lot of land in New Mexico and has really taken a lot 
of the productive assets off of those lands.
    What are these counties to do if we are not to--if you are 
going to continue to buy up land from the Federal Government 
and continue to erode the tax base, exactly how do you perceive 
that these counties can function?
    Mr. Kearney. Well, sir, I think those are challenges that 
are increasingly growing in your area and elsewhere around the 
West, and we are keenly aware of them. We think that there are 
a number of programs throughout the Department, a number of 
activities throughout the Department that perhaps can be of 
assistance in trying to deal with some of those issues, other 
than those dollars. And I think that we would be happy to work 
with you and your staff on specific problems and challenges you 
are facing in those issue areas with respect to how we can best 
address them across the board in terms of the different 
programs and agencies that we have. There are an enormous 
number of agencies and programs that we have that we think can 
also try to be helpful with that.
    Mr. Pearce. Thank you, Mr. Kearney. The term 
``assistance,'' if you give assistance, frankly, these people 
just want to make their own living. A lot of the farmers and 
ranchers have existed there for generations. On these 
allotments and the permits, the grazing permits are being taken 
away from them and not renewed. At some point you are not going 
to have any ranchers who are willing to take that. And if you 
think that there is a mess on public lands today that are 
burning without ceasing in the West, if you take the animal 
units off, if you take the grazing off, then I think the 
environmental damage is going to be extreme, because the field 
load buildup is going to do that.
    And as you were talking about the programs in the 
Department that are affecting the life--and your willingness to 
offer assistance, the wolf introduction program is occurring in 
Catron County. They got rid of the wolves because they were 
decimating the livestock population out there, and now they are 
being reintroduced. And not only that, but it is not just 
wolves that are being reintroduced. They are taking the problem 
wolves from my friend Mr. Renzi's State, the ones that are too 
dangerous there, kill too much livestock, do too much damage, 
they bring them over and put them in the corner of my State and 
then I am not really too appreciative of that because I get to 
answer the questions when I go in and talk to my constituents.
    And so instead of providing assistance, your agencies are 
providing more economic damage to a very, very troubled 
economy--to individuals, but also to the counties that are 
trying to function with decreasing budgets. Do you--what about 
some of the programs that are causing such disarray? I will let 
you answer, and that is my last question. Thank you.
    Mr. Kearney. Sir, we understand that there are problems and 
challenges out there on the land that are affecting ranchers 
and grazers and all the issues that you have addressed, and we 
are working hard to make sure that we fully appreciate the 
impacts of all of the things that are happening on the land and 
that we are working with the people on the land to try to deal 
with those issues, and stand ready to try to do that and 
address them any way that we can.
    Mr. McInnis. Thank you. Mr. Udall?
    Mr. Mark Udall. Mr. Chairman, thank you. I will be brief. I 
wanted to welcome Commissioner Davis as well, and clarify for 
the record that you are from Rio Blanco County.
    Mr. Davis. Yes.
    Mr. Mark Udall. It is always great to have a Coloradan 
here.
    I just wanted to associate myself with the Chairman's 
legislation, and make a remark to the effect that PILT is 
especially good because it provides certainty to the counties. 
And it doesn't link payments to management decisions, so that 
commissioners in whatever county it may be aren't forced to 
weigh in on all the portfolio of public lands issues--timber, 
mining, wilderness, water projects, anything that has to do 
with affecting your revenues.
    So if we could get this done, and I want to urge the 
administration to be creative in looking at how we pass this 
legislation and fund it, then you all could turn your attention 
to some of the pressing problems and opportunities you have 
instead of every year having to fight for your PILT funding.
    So I want to again thank the Chairman for this very 
important piece of legislation for westerners, and a number of 
easterners as well.
    Thank you, Mr. Chairman. I yield back.
    Mr. McInnis. Thank you, Mr. Udall.
    I would like to, before I go to Mr. Cannon, just to mention 
one thing about the PILT and so on. As you know, Mr. Davis--you 
and I have talked on a number of occasions--PILT is but a small 
part of the reimbursement if you consider the entire impact to 
the area. I have noticed recently that in some of the water 
debate that is going on within the borders of our State, that 
some have said, well, we are going to pay payment in lieu of 
taxes and you ought to be satisfied. Well, that does not 
satisfy the mitigation that is required. PILT is just a partial 
reimbursement to assist the counties in the impact.
    So I would--I am saying this not so much for our people in 
attendance today, but for the permanent record. We do not--
despite the fact that PILT has never really been fully funded, 
even if it was, even if we got everything we wanted under PILT, 
it is only a partial mitigation of the impact that results from 
some of these lands, which run all the way from water 
diversions to roads, as Mr. Udall said, and some of the 
services that are rendered.
    With that, Mr. Cannon, you may proceed. And welcome to the 
Committee, Mr. Cannon. Also, I want to publicly acknowledge 
that Mr. Cannon chairs our Western Caucus Coalition, which is 
kind of the voice of the West. And as many of you know, many of 
our colleagues here in the east don't really have public lands. 
The public lands are in the West, the bulk of the public lands. 
So we feel a voice for the Western Caucus is very important. 
Mr. Cannon carries out that task very well. I appreciate your 
service.
    Mr. Cannon, you may proceed.
    Mr. Cannon. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here as a member of the Resources Committee, 
but not of the Subcommittee. I appreciate your allowing me to 
be here. I appreciate and thank you for the bill that you have 
introduced that is before us today.
    Let me begin by associating myself with the remarks of my 
good friend, Mr. Udall. We see differently on many issues in 
the West, but on this one we see the same thing. Let me just 
reiterate a couple of points.
    PILT is important because you can't jerk it if you don't 
like what counties do. That is very important for our counties 
as they make the decisions. Second, Mr. Udall referred to 
people in the West appreciating this, but also people in the 
east. We often hear this chant that these are all America's 
public lands, but America doesn't pay for them. The cost comes 
in proximity. There is a huge penalty paid by the counties that 
have these public lands within their borders, and they are 
not--as the Chairman just indicated, those costs are not 
covered by this program.
    So first of all, let me thank you, Mr. Davis, for being 
here. We appreciate your perspective on this issue. Mr. 
Kearney, I have sat on the other side of the--where you are 
sitting now, and I know that it is sometimes uncomfortable. But 
let me just express for myself, and I think I express this as a 
uniform voice for the Western Caucus, we are exceedingly 
disappointed in the position of the administration on this 
issue. Exceedingly disappointed. We just fought the issue on 
the floor in the last few days.
    And I am going to give you a chance to respond in just a 
moment here, but as I read your testimony, it is not adequate. 
We represent, as you look at the map--some people call it the 
blue and red map--I call it the red map with blue fringes, 
because the bulk of the map is rural counties, and that 
represents the electoral base of this President, and we expect, 
in this particular case, to have response.
    Are you familiar, Mr. Kearney, with the work by my--the 
Speaker of my House of Representatives in Utah, Marty Stevens? 
He calls it ``Apple--''
    Mr. Kearney. Yes, sir. He has been in to brief folks at the 
Interior Department, yes, sir.
    Mr. Cannon. Do you recall the conclusions from that 
presentation, about how Federal lands in western states affects 
the funding for schools?
    Mr. Kearney. In essence, one of his concerns, as I recall, 
was that there has been an increased demand in counties in his 
and other States where the increased population has put an 
increased demand on education without--
    Mr. Cannon. I think you have missed the point. What he has 
done here is a gross look at the West versus the East. He has 
looked at the percentage of taxes that people pay in western 
States, he has looked at the percentage of the budget that 
States apply toward education, and what he comes up with is a 
yawing gap between what is paid in the West for education and 
what is paid in the east. So we are taxed more heavily, we pay 
more heavily, and the only difference, adjusting for everything 
else, the only difference is the public lands that we have in 
the West.
    So we get to pay the cost of those public lands in our 
higher taxes, in our lower expenditure on children, and you say 
to us today that the administration strongly opposes, or is 
opposed to H.R. 1005 because it would force the Federal 
Government to either raise taxes or cut other programs.
    Now, with all due respect, isn't this a matter of adjusting 
priorities, not cutting programs? We have cut taxes. This 
administration has cut taxes. In the process, we are going to 
re-juggle things. Would you mind addressing that issue, 
particularly the issue of whether we are going to have to raise 
taxes; second, whether we don't have room to fix this program 
in place, since our counties have to count on it; and finally, 
if it is a priority and we are going to do it anyway, why not 
do it the way this bill suggests?
    Mr. Kearney. Mr. Cannon, there is no question that this 
program and the issues associated with this program and the 
demands that it places on the counties are of critical 
importance and a challenge that has to be addressed. We are, 
within the confines of the budget the President has submitted 
and the position of this administration with respect to 
mandatory spending being clear, however it is also clear that 
we believe strongly in the program, strongly in what it is 
trying to do. We have provided, I believe, an unprecedented 
increase in this program with respect to past years and, 
frankly, within the context of the overall Interior Department 
budget. With respect to that, we have gone well above. We are 
somewhere on the order of 20 percent over what the rest of the 
programs within the administration budget for Interior 
received. We are much closer to what Congress is on track to 
provide for this program. We are addressing administrative 
changes with respect to the money.
    Mr. Cannon. But I don't think you are answering the 
question that I asked, if you don't mind.
    Mr. Kearney. In terms of prioritization, there is no 
question that there are a variety of priorities that have got 
to be addressed, and this is one of them. And within the 
constraints of the budget that the administration has submitted 
and the position of this administration, I think we have 
demonstrated that it is one of the highest priorities at the 
Department of Interior, as well as also recognizing that we do 
have other priorities in addition to that in terms of matters 
related to homeland security, in terms of fire, in terms of 
education--other programs that affect the West and western 
counties as well--in the broader budget of the administration.
    So it is, we believe, a high priority of the administration 
with respect to--within the confines of the budget that we have 
and the setting of the priorities.
    Mr. Cannon. Mr. Chairman, may I ask unanimous consent for 
an additional minute?
    Mr. McInnis. Certainly. You may proceed.
    Mr. Cannon. Thank you. Let me just point out that it is not 
a matter of cutting taxes or cutting other programs. In fact, 
there are lots of other options. For instance, we have, I 
think, already identified by the Interior Department 5 million 
acres of surplus lands. We can sell those lands.
    Let me just end by saying that we appreciate the priority 
that is given the West. We have to do this stuff with homeland 
security because we have this huge and untended forest and 
other public lands that could go up in vapor overnight and ruin 
our environment, kill endangered species, and we have people 
that have the animus to do that. So we have to do some of those 
things. That is not helping our counties. It is nice that that 
is being done, but that is an American obligation by the 
American people, and our counties are the folks that are 
suffering the disproportionate burden. Because every time you 
guys do--or every time the Federal Government, not the Interior 
Department--but as the Federal Government creates mandates on 
our local police, we have to pay them in our counties, and that 
is a huge disproportionate impact on rural counties as compared 
with the urban counties.
    Let me just tell you plainly. It is the highest priority of 
the Western Caucus--that is the 125 or so westerners who are 
associated with the caucus, so I can't speak for all of them, 
but I am pretty sure that most of them have that view, and the 
50 or 60 that are active and regularly involved in the Western 
Caucus--to get PILT funded fully up to the level of the 
appropriation. And we want to raise that over time.
    Secondly, this bill is of major importance. I suspect you 
will find that the Western Caucus members are going to focus on 
this over this next few months, and we will weigh in again and 
again and again until we solve this problem. Solving the 
problem is raising the funding and making it permanent.
    Thank you, Mr. Chairman. I yield back.
    Mr. Mark Udall. Would the gentleman yield?
    Mr. Cannon. Certainly. Whatever remains of that minute.
    Mr. Mark Udall. Just briefly. I have been listening 
intently trying to find a place where I could disagree with my 
good friend Mr. Cannon, and I can't. And so I further want to 
associate myself with your remarks and let this administration 
know that this is a bipartisan effort on the part of western 
members of this House, to fully fund PILT and, as the Chairman 
has said, make real the promise that has been presented for so 
many years to western counties.
    Mr. Cannon. I thank the gentleman for that. I am wondering 
if we are going to get lightning or something here. This is at 
least a historic moment. I thank the gentleman.
    Now, I suggest that as you consider this, it is not just 
the Western Caucus, but a huge number of people who have a 
bipartisan interest. I think I can speak for those people that 
I deal with often who are northeastern Republicans, who often 
disagree with us on western issues. I don't think you are going 
to find a bit of disagreement on this issue. That is, that they 
are going to want--they understand that there is a 
disproportionate burden, they are my friends and the friends of 
other members of the Western Caucus. They are going to want 
something to happen here. And we are clear on this point and 
want to express that we the greatest clarity that we possibly 
can.
    Thank you, Mr. Chairman, and I do yield back.
    Mr. McInnis. Thank you, Mr. Cannon and Mr. Udall.
    I would just note, for sensitivity purposes, that in the 
statement which is being referred to, the language ``because it 
would force the Federal Government to either raise taxes or cut 
into other programs,'' what the Federal Government needs to 
realize is that they have forced Mr. Davis and his county to 
either raise taxes or cut into other programs. So it is really 
kind of ironic that the Government comes, takes the land off 
the tax rolls, forces the local county to have to subsidize or 
raise taxes, and then when it is time for them to pay their 
fair share, they say, oh, my gosh, we don't want to have to cut 
our programs. It just ain't good.
    So to wrap this up, Mr. Davis, do you have anything else? I 
know some points have come up that you might want to answer.
    Mr. Davis. Mr. Chairman, your last remark is very much to 
the point. And as you know, in Colorado, county commissioners 
don't raise taxes. It takes a vote of the people. And we 
recently attempted to do that, because our economy is going the 
way of many economies across our Nation. And the people said 
no. So we have done all the liposuction on the fat that we can, 
and we are now--we are watching the blood flow. And it is very 
serious. This is one program that could help us.
    That is one point. And another is, it isn't all the West. 
Last year I sat here with a lady from North Carolina. There are 
many eastern states that have PILT. As a matter of fact, I 
think the only one that does not have PILT is Rhode Island.
    Mr. Cannon. Would the Chairman yield for just one more 
comment.
    Mr. McInnis. Yes, sure. Go ahead.
    Mr. Cannon. I would ask you, Mr. Kearney, and I know you 
have to run this stuff through--your testimony through OMB, but 
you may want to take a pencil or yell at those guys and not let 
them force you to say things like ``the problem here is raising 
taxes or cutting programs.'' That is something that I think you 
guys can control in Interior. At least you ought to be yelling 
at them if they insist on that kind of language, which is 
deeply offensive.
    Thank you, Mr. Chairman. I yield back.
    Mr. McInnis. Thank you, Mr. Cannon. I know that, at least 
as Chairman of the Committee, I have had a number of 
discussions with Mr. Renzi on this issue, on this particular 
issue. Mr. Renzi, if you wouldn't mind, I would appreciate you 
just kind of covering some of that area real quickly.
    Mr. Renzi. Yes, thank you. In a matter of saving some time, 
I will hold my questions, which were really covered by Mr. 
Cannon.
    I just want to associate myself with my colleague Mr. 
Pearce's comments about the wolf and the way we treat our 
neighbors out west. That rare and endangered wolf introduction 
program turns out, as we found out recently, and we suspected 
early on, that these wolves also have now dog DNA in them. And 
so these hybrid wolves that are destroying many of the cattle 
in the West, and particularly putting some of our ranchers out 
of business, it turns out they contain dog DNA. Not even they 
are hybrid wolves.
    So I lend myself to the comments of my colleagues as it 
relates to wanting to see the PILT program fully funded and, 
hopefully, these increases that we are hoping for, I think--did 
you mention 21 percent? Hopefully we will see that begin to 
grow.
    Thank you, Mr. Chairman.
    Mr. McInnis. Are there any further questions by the 
members? Seeing no further questions, I want to thank the 
panel. Thank you very much. I appreciate it. As you know this 
is a very high issue of interest, would be a good way to put 
it. So thank you again. Appreciate it, and appreciate the 
distance you have traveled. We will now call up our witnesses 
for H.R. 2707. Ms. Estill and Mr. James Tate, with the 
Department of Interior. Mr. Stenholm, thank you for coming. If 
you would like to join us at the dais, you are more than 
welcome to, or at the table, whatever your choice would be. Go 
ahead and be seated. Thank you very much for coming.
    Because of the size of the panel, we are going to do the 
panel in two sections. We will do the first people that I have 
called, and then we will bring up the second panel. We will 
withhold questions until we have had both panels make their 
presentations.
    I am pleased today to have Mr. Stenholm and Mr. Pearce both 
come to the Committee for testimony on this. Mr. Stenholm, I 
will let you begin with your statement, and then we will move 
to Mr. Pearce, and then on to the rest of the Committee.
    [The prepared statement of Mr. McInnis on H.R. 2707 
follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
        Subcommittee on Forests and Forest Health, on H.R. 2707

    Today the Subcommittee will consider Tamarisk eradication 
legislation offered by my friend and Colleague Stevan Pearce, who I 
want to personally commend for his hard work and leadership on this 
important issue. I look forward to hearing from all of our witnesses 
today, including my old friend Dr. John Redifer from Colorado, and 
working with the Members of this Committee over the coming weeks to get 
Tamarisk control legislation enacted into law.
    Every year billions of gallons of the West's water--that's right, I 
said billions--are sopped up by a tenacious and all-too-prevalent 
invasive tree called Tamarisk, or Salt Cedar. If you've been out 
kayaking or rafting the Colorado River, or gone fly-fishing on one of 
her many tributaries, you've seen this harmless looking tree--it's 
seems to be everywhere.
    But make no mistake about it--this non-native vegetation is 
anything but harmless. Tamarisk is the equivalent of a massive rat hole 
on the West's waterways. It is robbing the West blind of its most 
cherished commodity--water.
    Consider these facts:
    When it comes to water in the West, it's not too often that you 
find an area on which everyone agrees. But in Tamarisk, it appears that 
we finally have a common enemy. Upper basin States, lower basin States, 
California, Colorado, environmentalists, fisherman, those who want more 
dams, and the ``flat-earthers'' trying drain Lake Powell--all seem to 
agree that a massive Federal, state, local and private effort is needed 
to yank this unwanted invader from the banks of the West's rivers and 
streams.
    Congress can't make it rain, but giving land managers the tool to 
eradicate Tamarisk isn't a bad days work. It's a big challenge, and it 
won't be cheap or easy--we should have no allusion about that. But it 
is a no brainer
                                 ______
                                 
    Mr. McInnis. Mr. Stenholm, you may proceed.

  STATEMENT OF HON. CHARLES W. STENHOLM, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Stenholm. Thank you, Mr. Chairman. Thank you and the 
members of the Committee for allowing me to testify here this 
morning. I commend the Resources Committee for taking such 
swift action on this bill that my colleague, Congressman Steve 
Pearce, and I have been working on so diligently.
    The effects of the salt cedar and Russian olive invasion 
can be seen in more than half of the continental United States. 
I am glad today's panel includes scientists, individuals 
working in the field to control this non-native species, and I 
will gladly leave the science on this issue for them to 
explain.
    I want to take this opportunity to emphasize the importance 
of brush control demonstration projects and outline the 
benefits of these programs for our communities in western 
United States.
    I represent the 17th Congressional District in the West 
Central part of Texas. As in much of America, drought has 
certainly left its mark on West Texas. As a result, salt cedar 
proliferated in this area as receding waters left ideal 
conditions for growth of this invasive plant. The devastating 
results, evident throughout the Upper Colorado River basin, 
have become more acute in recent years as the salt cedar 
invasion has severely diminished the availability of fresh 
water supplies.
    Not only is this the largest waste of fresh water in the 
West, but salt cedar increases soil salinity and fire 
frequency. It develops into monotypic thickets that displace 
valuable native plant and tree species, and has virtually no 
economic or environmental benefit. To underscore the 
devastation this plant causes, I offer this example. The 
Colorado River Municipal Water District estimates that the salt 
cedar consumed more water in 2002 than the district's largest 
municipal customer, a city with more than 100,000 people.
    The combined capacity of the district's three reservoirs 
fell below 25 percent during 2002, and it became readily 
apparent that salt cedar was robbing municipalities of this 
precious resource. The district has worked closely with many 
Federal, State, and local entities to begin brush control 
projects within the Colorado River watershed. In cooperation 
with private and public land managers, the Colorado River 
Municipal Water District implemented salt cedar control 
projects with reasonable success. Further, private land owners 
have partnered with the Natural Resources Conservation Service 
to employ brush control on their properties, and in some cases 
the dormant streams and creeks have again begun to flow where 
those brush control projects were put into action.
    I am convinced this bill moves in the direction toward real 
solutions to the salt cedar and Russian olive invasion. It 
outlays the framework for private and public land managers to 
cooperate with the Department of Interior, USDA, Army Corps of 
Engineers, local soil and water conservation districts, and 
State agencies to work together in these demonstration 
programs. After all, it will take integrated control and 
management practices to significantly deter further spread of 
this non-native species.
    I believe Congress should play an integral role in the 
mitigation of these invasive pests, since much of the invasion 
has occurred on Federal lands. More importantly, Congress 
cannot ignore the fact that Federal agencies introduced the use 
of Russian olive to minimize soil erosion in riparian areas. 
Since that introduction, these plants have spread throughout 
the United States, and therefore we must take a proactive 
approach to restore our public and private lands to healthy 
levels.
    The fact remains, to minimize the wasteful reductions in 
our Nation's water supply, Congress must take immediate action 
to implement a control plan for sale cedar. I have worked 
closely and tirelessly during my time in Congress to address 
the scarce water situation in West Texas. I can attest that 
brush control efforts have produced most lasting results in the 
17th District. Like most of the United States, West Texas has 
been devastated by drought, highlighting the importance of 
developing a long-term plan to ensure that communities will 
have an adequate supply of drinking water. In the 17th District 
of Texas there is virtually nothing of greater daily concern 
than the availability of fresh water. And while our demand for 
water grows, the supply dwindles. In order to meet projected 
water needs, we must develop integrated plans to increase 
supplies while reducing demand for water.
    I close by saying that, unlike a barrel of oil, it is tough 
to put a price on clean, fresh water.
    Thank you, Mr. Chairman, for allowing me to testify.
    Mr. McInnis. Thank you, Mr. Stenholm.
    Mr. Pearce?

 STATEMENT OF HON. STEVE PEARCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Mr. Chairman. I would like to thank 
you for your willingness to address this problem by holding 
hearings. I would also like to express my appreciation for you 
and your staff for working diligently with me to produce this 
bill.
    Also, thanks to Mr. Stenholm, who has been tireless in 
working with me on the bill, and for the hard work that we are 
doing to ensure passage of this important measure.
    I would also like to thank Mr. Tom Davis, who is on the 
panel today. He is the president of the Carlsbad Irrigation 
District. He is here to testify. He has long been involved in 
salt cedar eradication. His testimony will share valuable 
experience and knowledge as we move forward. Mr. Davis is the 
one who almost single-handedly tries to balance the water needs 
of the southern portion of New Mexico, where the Pecos runs 
into Texas.
    Mr. Chairman, as you know, salt cedar and Russian olive are 
both invasive species that adversely impact the water supply. 
They increase soil salinity, they lower the potential water 
that soil can hold, and increase the fire frequency. Just a few 
weeks ago, in Albuquerque, several hundred homes along the Rio 
Grande River burned, forcing about 600 people to be evacuated 
from their homes. This fire burned many of the native 
cottonwood and willow trees. One of the main culprits being 
blamed for the escalation of the fire is the large amount of 
underbrush that had collected. Most of that was salt cedar. 
Without the buildup of salt cedar, the fire probably would not 
have burned as extensively or with the intensity that it did.
    One of the problems that is caused by the salt cedar is an 
inability to deliver the water to Texas that the Supreme Court 
has allocated. As you know, the Supreme Court made compacts 
between all of the States to determine the amount of water that 
each State gets. In specifically dry years, the upstream States 
are put at extreme disadvantage, and then, with the invasion of 
species that are sucking the water out of the river, deliveries 
are extremely difficult, causing economic chaos as disarray as 
well as the inability for communities to have the water which 
they deserve and need.
    The particularly difficult piece of this whole equation is 
that this plant is not native. It is a non-native species that 
was imported and is now being used by environmental communities 
to establish habitat and to establish the reasons for habitat 
being recognized. Salt cedar is widely distributed and is 
extensive along riparian areas in the western United States, 
particularly along Colorado, Rio Grande, Pecos, the Gila 
rivers. Controlling and, hopefully 1 day, completely 
eradicating salt cedar and Russian olive is important. As we 
eradicate salt cedar, we will increase the flow of water in 
streams, springs, and rivers, restore native plants that are 
less water-consuming, and improve habitat.
    Because of the widespread nature of salt cedar and Russian 
olive, there have been many projects to clear these trees and 
then to estimate how much water was saved. The increased stream 
flows and water restoration estimates vary widely. The high 
range is from 69 acre-feet saved per year down to a low of 
between 0 to 1.5 acre-feet per year per acre cleared. The last 
estimate is based on a study done by the USGS on the Pecos 
River in New Mexico.
    H.R. 2707 directs the Secretaries of Interior and 
Agriculture to implement demonstration projects over large 
acreages and time scales in order to monitor the actual saved 
water on both surface and ground water. This information will 
allow the Secretaries to formulate a comprehensive management 
plan, including cost, and distinguish when and where 
eradication methods are most effective. Almost everyone can 
agree, regardless of what side of the political spectrum they 
are on, that controlling salt cedar and Russian olive for water 
salvage, riparian restoration, salinity control, fire control, 
and habitat restoration is a positive benefit. However, without 
the input of good scientific input, this task may well prove to 
be impossible. H.R. 2707 will provide the sound scientific 
basis needed for our continuing to contribute new, innovative 
approaches and solutions.
    Again, thank you, Mr. Chairman, and Mr. Stenholm. I look 
forward to working with you to make any changes and 
improvements to this bill and secure passage so this important 
work can move forward. I yield back the balance of my time.
    Mr. McInnis. Thank you, Mr. Pearce.
    Ms. Estill?

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
     LEGISLATION, AND COMMUNICATIONS, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. Thank you for the opportunity to provide USDA's 
views on H.R. 2707, the Salt Cedar and Russian Olive Control 
Demonstration Act, which directs the Secretary of Interior and 
the Secretary of Agriculture, acting through the Forest 
Service, to carry out a demonstration program to assess 
potential water savings through control of salt cedar and 
Russian olive on forest and public lands under their 
jurisdiction.
    One of the greatest threats to the national forest is this 
spread of unwanted, invasive species. The Department agrees 
completely with the goals of H.R. 2707, which would provide 
important information for managing two non-native invasive 
species that, as we have heard, pose significant ecological 
threats in the western United States. However, the Department 
has some concerns and would like to work with the Subcommittee 
to clarify and improve the bill.
    The genus Tamarix, commonly known as salt cedar, is 
comprised of shrubs or trees native to arid saline regions of 
Eurasia and Africa. Since the 1830's, ten species have been 
introduced into North America as ornamental plants and for 
windbreaks. Two species of salt cedar have escaped cultivation 
and rapidly invaded riparian areas of the western United 
States. Today, salt cedar has infested over 1 million acres in 
the western United States, consuming large quantities of water, 
intercepting deep water tables, and interfering with natural 
aquatic systems. It disrupts the structure and stability of 
native plant communities and degrades native wildlife habitat.
    Russian olive is also a native of southern Europe and 
western Asia that was first introduced in the last 1800's as an 
ornamental tree and windbreak. Although it is a non-native 
invasive species, Russian olive is also a popular and hardy 
plant that is sold commercially for landscaping purposes. 
However, as its impact to native species has become evident, it 
has been declared a noxious species in some States, and sales 
have been banned in others, such as Colorado. Like salt cedar, 
Russian olive is a fast-growing plant that can out-compete 
native vegetation and tax water reserves.
    We would like to work with the Subcommittee and the 
Department of Interior to clarify the roles of the departments 
and the agency referenced in the bill, to specify components 
and requirements of the assessment report, and to develop 
criteria for selection of the demonstration project areas.
    Land managers in communities are currently stretching their 
limited resources to address the ecological problems posed by 
these two species. The increased understanding of the impacts 
of these species on the quantity of surface and ground water, 
as well as the effectiveness of various treatments, would 
advance our Nation's ability to avoid or reduce undesired 
ecological consequences.
    This concludes my statement. I will be happy to answer any 
questions.
    Mr. McInnis. Mr. Tate?

STATEMENT OF JAMES TATE, SCIENCE ADVISOR TO THE SECRETARY, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tate. Thank you, Mr. Chairman, members of the 
Committee. I am Jim Tate, science advisor to the Secretary of 
Interior, Gale Norton, and a former resident of Golden, 
Colorado. Seems like everybody here is from Colorado.
    I want to thank you for providing the Department of 
Interior the opportunity to testify on H.R. 2707. The 
Department of Interior supports the goals of H.R. 2707 and we 
are committed to working with you to ensure the program 
established will be both effective and efficient in the control 
and management of two of the invasive weeds that are affecting 
our Nation's economy and its ecology.
    This legislation focuses on two of the dozens of weed 
species that plague our public and private lands. These two 
groups of weeds--salt cedars, or tamarisk; and olives, both 
Russian and autumn--are similar in many ways. They have been 
shown to out-compete native vegetation, confound water 
management, and cost our economy millions of dollars. And they 
are different, in that salt cedar is established on millions of 
acres, but olives, by comparison, are just getting a good 
foothold.
    Studies conducted since the 1950's have shown that dense 
tamarisk stands utilize more water on a daily basis than native 
cottonwood, willow plant communities. Based on these studies, 
estimates have been made that water lost for irrigation, 
municipal uses, flood control, and hydropower run between $133 
million and $265 million. Irrigation losses alone are as much 
as $120 million annually.
    But I have to suggest caution in how we say these things 
about the use of water by tamarisk, in particular. The use of 
water is divided into evapotranspiration--the water that is 
utilized by the plant itself--and other effects on water 
management, such as percolation of water into the alluvium, 
when the water is slowed down by dense stands. Water released 
for irrigation purposes from an upstream reservoir may not even 
get to their intended destination when tamarisk is blocking the 
channel. The effects of tamarisk and olive on other natural 
resource values have been documented as well and are equally as 
important as the water-management confounding effects.
    Currently DOI, the Department of Interior, uses strike 
teams to manage invasive plants on Federal lands, both in the 
Fish and Wildlife Service, where these teams are being 
developed, and modeled after the National Park Service's exotic 
plant management teams. In some cases, such as olives, the 
resources potentially at risk have been detected early enough 
and can be spot-treated to avoid costly control efforts that 
might be necessary for tamarisk. This early detection and rapid 
response model is receiving increased attention as a means of 
preventing the spread and establishment of olives.
    But areas with well established species such as salt cedar 
require considerably more effort to manage. There, we have 
trained and certified specialists that clear areas vital to 
wildlife resources, and they use integrated management plans 
that involve both mechanical, chemical, and even physical means 
of removing the plants. Our National Wildlife Refuge at Bosque 
del Apache has served as a demonstration laboratory for the 
control and management of tamarisk, and that is a place we have 
been doing quite a bit of research.
    We do believe some additional research is needed. As 
identified in H.R. 2707, more precise information is needed on 
the extent of infestations, management options, control 
methods, strategies. Most urgently, more information is needed 
on areas that would most likely respond to restoration 
projects, and this would be needed to help develop an 
integrated control and restoration plan--a sort of best 
practices plan--that will provide land managers at all levels 
of Government with the options available to them for control.
    The Department currently promotes partnerships with private 
land owners, and there are a number of such programs mentioned 
in my written testimony.
    Currently, the Departments of Interior and Agricultural are 
cooperating in a cross-cut budget for Fiscal Year 2004. This is 
an interagency approach to invasive species control. This is a 
performance-based cross-cut, where the agencies work together 
to identify appropriated money directed to specific invasive 
species, such as tamarisk, and to develop common performance 
measures for the use of those monies. Under this performance 
umbrella, identified new and base funds will be applied in the 
Departments of Interior and Agriculture to control and manage 
the spread of tamarisk.
    As a means of deciding how to spend the Fiscal Year 2004 
funds proposed in the President's budget, the Department is 
considering a strategy workshop to be held in the West sometime 
this fall. The purpose would be to gain stakeholder input for 
our roadmap containing common protocols and decision criteria, 
best practices for tamarisk-control management.
    I will finish up very quickly. I see my time has expired.
    The Departmental views on H.R. 2707, we view the 
comprehensive assessment called for in Section 3(a) very 
positively, and we believe such an approach helps Federal land 
managers develop a more coordinated long-term approach.
    Section 3(b) would require the Secretaries of Agriculture 
and Interior to initiate demonstration projects. We recognize 
the importance of carrying out strictly controlled projects 
that would provide us with practical control methods; however, 
the language in this subsection, when viewed in combination 
with Subsection 2(a) and Subsection 3(d), does not make clear 
which secretary and how the program would be initiated.
    The legislation would authority $25 million for each of 
fiscal years 2004 through 2007. We are concerned the bill does 
not provide sufficient direction on how the appropriated funds 
could be distributed.
    And we also have concern about the overall costs of the 
program. While the administration's cross-cut budget evidences 
our commitment to controlling invasive species, the program 
established under this legislation would have to compete with 
other priority activities within the context of the President's 
budget.
    And finally, the Department notes that the actions called 
for in H.R. 2707 can be achieved within existing authorities.
    Thank you for the opportunity to comment.
    [The prepared statement of Mr. Tate follows:]

 Statement of Dr. James Tate, Science Advisor to the Secretary of the 
        Interior, U.S. Department of the Interior, on H.R. 2707

    Mr. Chairman and Members of the Committee, I am Jim Tate, Science 
Advisor to Secretary of the Interior Gale Norton. I want to thank you 
for providing the Department of the Interior (Department) the 
opportunity to testify before you regarding H.R. 2707, legislation to 
promote the control and management of the invasive species saltcedar, 
or tamarisk, and Russian olive. The Department supports the goals of 
H.R. 2707, and we are committed to working with you to ensure that the 
programs it establishes will be both efficiently delivered and 
effective.
    Let me begin by providing you with some background on this issue, 
followed by brief comments on the legislation.
Background
    In the late 19th century, importation of several species of the 
genus Tamarix, commonly called tamarisk, which now interbreed in the 
United States, and Russian olive came just as the Department began 
efforts to mediate land speculation and work closely with western 
governors and Indian tribes during the turbulent settlement of the 
West. The scientific expeditions of John Wesley Powell (which carried 
out the Geographical and Geological Survey of the Rocky Mountain region 
in 1874) set in motion the still-evolving paradigm that wise 
development informed by science provides the best hope for conservation 
and future use of our Nation's natural resources.
    The Department is one of the Nation's principal conservation 
agencies, charged with protecting and providing access to our Nation's 
natural and cultural heritage. Today, Departmental authorities provide 
for the management and protection of resources in an area of the West 
now increasingly under pressure as population densities mushroom and 
water resources are increasingly stressed. This region of the country 
also has seen the greatest impact from the species addressed in this 
legislation.
Scope of the Problem
    Russian olive is a hardy, fast-growing tree native to Europe and 
western Asia. It was introduced into the United States in the 19th 
century and was promoted as windrow and ornamental plantings. It grows 
along streams, in fields, and in open areas. It is shade-tolerant, and 
it grows well in a variety of soil and moisture conditions. While 
Russian olive is primarily found in the West, it also is present in the 
Eastern United States.
    Tamarisk comprises a suite of several species also imported to the 
United States in the 19th century for use as windbreaks and erosion 
control plantings. It now covers approximately 1.6 million acres of 
riparian lands within all the seventeen western states (as far north as 
Montana). The spread of tamarisk, estimated at 50,000 acres per year, 
is often supported by its flammability. It rapidly produces dense 
biomass and secretes salt on the soil that suppresses native plant seed 
germination and seedling growth.
    Preliminary studies have shown that dense tamarisk stands utilize 
more water on a daily basis than native cottonwood-willow plant 
communities. There is more total surface area on the leaves of tamarisk 
plants than on cottonwood and native shrubs growing in a given area, 
and tamarisk continues to release water through the pores in its leaves 
during mid-day, whereas native cottonwoods shut this process down to 
conserve water. Tamarisk growing in the streambed can also slow the 
water flow, allowing additional time for percolation of the water into 
the alluvium. Water released for irrigation purposes from an upstream 
reservoir may thus not get to its intended destination when tamarisk is 
blocking the channel.
    Estimates of the value of water lost--for irrigation and municipal 
uses, flood control, and hydropower production--run between $133 
million and $265 million. Irrigation losses alone are as much as $120 
million annually. See, e.g., Zavaleta, ``Valuing Ecosystem Services 
Lost to Tamarix Invasion in the United States,'' in Invasive Species in 
a Changing World, ed. Harold A. Mooney and Richard J. Hobbs 
(Washington, D.C.: Island Press, 2000), 261-300.
    The growing abundance of tamarisk along western rivers has led 
resource managers to seek to control it in order to: (1) increase the 
flow of water in streams that might otherwise be lost to 
evapotranspiration and percolation; (2) restore native vegetation along 
the banks and floodplains of rivers and shorelines of reservoirs or 
lakes; (3) reduce hazardous fuels; and (4) improve wildlife habitat.
    As you know, the Department, through the Bureau of Reclamation, has 
a significant role in the distribution of water throughout much of the 
West and Southwest. Because of its significant impact on water 
resources alone, the Department has a strong interest in the control of 
tamarisk as part of its management efforts. For this reason, much of 
the remainder of my statement will focus on control efforts for this 
species.
Current Departmental Tamarisk Management Efforts
    Current Departmental programs and activities focus control and 
management efforts for tamarisk on areas with resources at risk. Some 
areas are so heavily infested that expert ``strike'' teams have been 
used to remove the dense vegetation. For example, the U.S. Fish and 
Wildlife Service (FWS) is in the process of establishing such ``strike 
teams,'' modeled after the National Park Service's (NPS) Exotic Plant 
Management Teams (EPMT), to combat invasive species, including 
tamarisk, in the Southwest. Areas vital to wildlife resources are 
cleared using mechanical, chemical, and physical means. Comprehensive 
conservation plans are used to guide these efforts and to indicate the 
areas of highest priority for waterfowl, endangered species, or other 
wildlife habitat values. In some cases, resources potentially at risk 
from tamarisk incursion are spot-treated early enough to keep the 
plants away, thus avoiding costly control efforts. This early detection 
and rapid response model is receiving increased attention as a means of 
preventing the spread and establishment of tamarisk.
Place-based Research and Testing
    Departmental land management operations focus significant funding 
for tamarisk control on refuges, national parks and monuments, and 
along irrigation canals under the jurisdiction of the Bureau of 
Reclamation. Bosque del Apache National Wildlife Refuge has served as a 
demonstration laboratory for control and management of tamarisk, 
including research and development of innovative methods for restoring 
native riparian vegetation and working with nearby private landowners 
and Indian Tribes to implement them. Biomass removal, intermittent 
flooding, chemical treatments, and other mechanical methods have all 
been tested and measured for effectiveness and efficiency. Cooperating 
with researchers from nearby universities and other research 
institutions, such as the Los Alamos National Laboratory, scientists 
and land managers have also tested methods to reduce the likelihood of 
later re-infestation by tamarisk.
    Because of our role in the management of Western lands, we 
recognize the need for on the ground management of invasive species 
like tamarisk. However, we also recognize that there are areas where 
our control and restoration efforts will benefit from targeted research 
and development projects. More information is needed regarding the 
identification of areas or situations that would most likely respond to 
vegetative restoration projects once tamarisk removal has begun. Such 
information will also assist in the development of an integrated 
control and restoration plan--a ``best practices'' plan that will 
provide land managers at all levels of government with options for 
removal, control, and restoration of lands infested with tamarisk.
Programs to Promote Private Partnerships
    Various programs within the Department seek to promote partnerships 
with private landowners to address problem species like tamarisk. One 
initiative that addresses these issues is the cooperative conservation 
component of the challenge cost share programs in the Bureau of Land 
Management (BLM), NPS and FWS. These programs emphasize building 
partnerships for the conservation of natural resources and provide 
expanded opportunities for land managers to work with landowners and 
others to form creative conservation partnerships. This initiative 
recognizes that nature knows no jurisdictional boundaries and that, 
through these partnerships, the Department's land managers can work 
with landowners and other citizen stewards to tackle invasive species, 
reduce erosion along stream banks, or enhance habitat for threatened 
and endangered species. Among other things, in FY 2003 we have funded 
through this initiative projects that are aimed at the eradication and 
control of tamarisk, Russian olive, and other invasive plants, and 
reclamation of impacted lands.
    Another program is the FWS's Partners for Fish and Wildlife, which 
promotes private landowner cost-share projects for habitat restoration, 
including funds targeted for control of invasive plants and subsequent 
restoration. The Partners Program has worked with private landowners 
across the Nation to remove, burn, biologically control, and otherwise 
combat invasive plants on thousands of acres of wetlands and upland. 
Tamarisk control is a focus of technical and financial assistance in 
the Southwest.
    The control and management of tamarisk is part of the BLM's 
Partners Against Weeds Strategy Plan, BLM's Strategic Plan, and the 
National Fire Plan. The Partners Against Weeds program funds 
cooperative efforts with landowners to control invasive species. It 
also funds cooperative outreach and education projects with schools and 
local and county governments. In one important project, the BLM plans 
to work with several groups, including Clark County and the communities 
of Bunkerville and Mesquite in southern Nevada, to remove tamarisk 
along portions of the Virgin River floodplain. As I noted above, 
because of its properties, tamarisk poses a potential fire risk to 
homes, ranches, farms, and recreational facilities in the wildland-
urban interface.
    This project involves mechanical removal of tamarisk in the project 
area. The goal of the project is to move away from the tamarisk-fueled, 
high intensity fires that are now typical of the area concerned and to 
restore native vegetation, such as the relatively inflammable grasses, 
sedges, shrub communities, cottonwoods, and willows. Current planning 
calls for 95 acres of treatment in FY 2004, with an additional 100 
acres per year during the following 7-8 years.
    The NPS, U.S. Geological Survey (USGS), and the Bureau of 
Reclamation partner with the Agriculture Research Service and the U.S. 
Forest Service, both within the Department of Agriculture, and 
university scientists to develop and test biological control agents, 
including the beetles used for biological control of tamarisk in the 
West, on projects to identify and avoid sites where tamarisk is 
naturally dying out, to conduct studies of stream flow management for 
vegetation control, and on studies of hybridization to better predict 
the potential future spread of tamarisk.
    USGS scientists can help identify site potential for water salvage, 
revegetation, and wildlife value, and develop protocols and measures 
for prioritizing sites for control or revegetation. The USGS also has 
partnerships with state and county weed departments, the National 
Aeronautics and Space Agency (NASA), and the Tamarisk Coalition aimed 
at mapping currently invaded sites and identifying new invasions.
    The Bureau of Reclamation leads, along with USDA's Agricultural 
Research Service, the Saltcedar Biological Control Consortium, a task 
force comprised of over 40 agencies. The Bureau of Reclamation, in 
collaboration with Los Alamos National Laboratory, also develops new 
technologies for determining the amount of water lost from the Rio 
Grande River due to tamarisk.
Crosscut Budget for Fiscal Year 2004
    The Administration is also working toward an interagency approach 
to invasive species control. The President's Budget Request for Fiscal 
Year (FY) 2004 contains a performance budget crosscut on tamarisk. 
Agencies would work together to develop common performance measures. 
Under this performance umbrella, new and base funds will be applied in 
the Departments of Interior and Agriculture to control and manage the 
spread of tamarisk in the Southwest. Within the Department, the BLM 
proposes to control 2,750 acres of tamarisk with a $500,000 funding 
increase. The Bureau of Reclamation, utilizing $600,000 in new funding, 
proposes to control 22,000 acres of tamarisk. The FWS has proposed an 
increase of $640,000 for treatment of tamarisk and other species on an 
additional 50,000 acres, and the NPS, utilizing $200,000 in base 
funding, proposes to treat 1,000 additional acres. A proposed funding 
increase of $100,000 will help the Bureau of Indian Affairs control 
tamarisk on 4,000 acres. Finally, USGS proposes two additional research 
projects in direct support of land management efforts, including the 
development of protocols and measures to prioritize sites for control 
and revegetation efforts.
    In addition, both Interior and Agriculture agencies are working 
together with our state and local partners to develop and implement 
control technologies as part of an integrated approach to pest and weed 
management. New chemical and biological control methods for tamarisk 
are being tested under strictly controlled conditions because the 
endangered southwest willow flycatcher occupies areas now infested with 
tamarisk that were once occupied by stands of native willows and 
cottonwoods. The Federal agencies are providing support for a multi-
pronged approach to tamarisk control utilizing prevention, early 
detection and rapid response, and other control and management 
activities to limit the introduction and spread of tamarisk into new 
areas of the Southwest.
Coordinated Tamarisk Control and Revegetation Workshop
    As a means of deciding how to spend the FY 2004 funds proposed in 
the President's Budget for tamarisk control, the Department is 
considering a strategy workshop to be held in the West sometime this 
fall. The purpose would be to gain stakeholder input for a roadmap 
containing common protocols (decision criteria) and best practices for 
tamarisk control and management. The roadmap would provide guidance for 
selecting on-the-ground projects and research efforts with the twin 
goals of generating increased water supply and restoring ecosystems 
through long-term tamarisk control, revegetation, and habitat recovery.
Departmental Views on H.R. 2707
    I hope that this overview has provided you with a picture of what 
the Department is doing to manage the control of tamarisk and other 
harmful exotic species. With the above discussion in mind, let me 
briefly turn to H.R. 2707.
    The ``Salt Cedar and Russian Olive Control Demonstration Act'' 
establishes a two-pronged approach to control of these species. Section 
3(a) of the legislation would require the Secretary of the Interior, in 
consultation with the Secretary of Agriculture, to complete an 
assessment of the extent of infestation by these species in states 
where the Bureau of Reclamation operates. The assessment is also to 
include past and present assessments and management options to control 
these species; the feasibility of reducing water consumption; methods 
and challenges in land restoration; and the estimated costs of 
destruction, biomass removal, and restoration and maintenance. Finally, 
the assessment is to identify long-term funding strategies that could 
be implemented by Federal, state, and private land managers.
    We view a comprehensive assessment positively, and believe such an 
approach helps Federal land managers develop a more coordinated, long-
term approach to addressing the problems associated with these species. 
While we agree with the goals of the bill, we have concerns with some 
provisions.
    Subsection 3(b) of the bill would require that the Secretary 
initiate demonstration projects to determine the most effective control 
methods, and provides certain criteria that must be included in the 
project designs. As noted above, the Department is currently working 
with our partners to develop and implement an integrated approach to 
management of this species. We recognize the importance of carrying out 
strictly controlled projects that will quickly provide us with 
practical control methods that can be used by our land managers on the 
ground. We note, however, that the language of this subsection, 
particularly when viewed in combination with subsection 2(a) and 
subsection 3(d), does not make clear which Secretary would initiate the 
program. We suggest that this language be clarified.
    The legislation would also authorize $25 million for each of fiscal 
years 2004 through 2007, though the bill does not provide sufficient 
direction on how the appropriated funds are to be distributed. The 
Department also has a concern about the overall cost of the programs 
created under the proposed legislation. While the Administration's 
cross cut budget evidences our commitment to control invasive species 
like those addressed here, the program established under this 
legislation would have to compete with other priority activities within 
the context of the President's Budget. Finally, the Department notes 
that the actions called for in H.R. 2707 can be achieved within 
existing authorities.
Conclusion
    In closing, I want to assure the Committee that the Department is 
prepared and committed to identifying, assessing, and acting to curb 
the economic and ecological impacts of tamarisk and Russian olive in 
the West. We will continue to work with our partners, and we agree with 
the intention of H.R. 2707 to more systematically develop a more 
effective control strategy. Our goal is to ensure the protection of our 
water resources and the restoration of important wildlife habitat.
    We share the Committee's concerns and interest in this issue, and 
offer to work with the Committee to ensure that any legislation 
promotes an efficient and effective control strategy. Mr. Chairman, 
this concludes my statement and I am happy to answer any questions that 
you might have.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Tate. And I think the field 
hearing is very appropriate. It is going to be helpful, but I--
though I would like to have it in Colorado. I understand it is 
being in New Mexico, and I think that is also very appropriate.
    Let's see. We will go ahead now. I am going to excuse you, 
but I would appreciate it if you would stay around just long 
enough for questions after the next panel. I will go ahead and 
excuse Ms. Estill and Mr. Tate, and would ask the second panel 
to come on up. We have Tim Carlson, Dr. Redifer, Mr. Davis, Mr. 
Kershaw, Mr. Sulnick.
    Mr. Carlson and Dr. Redifer, I hope I beat you to Grand 
Junction tomorrow, but I am afraid I probably won't. It is 
getting a little warm out there, huh?
    Mr. Carlson, why don't we go ahead and start with you. You 
may proceed.
    And by the way, I want to thank all of you for traveling 
this distance to testify. And again, what is very important 
here is the words that we get put into the permanent record, 
because this issue is a very critical issue that directly 
addresses the droughts that we are facing out there in the 
West.
    Go ahead, Mr. Carlson.

    STATEMENT OF TIM CARLSON, EXECUTIVE DIRECTOR, TAMARISK 
                           COALITION

    Mr. Carlson. Mr. Chairman and members of the Committee, 
thank you for this opportunity to present testimony before your 
Committee on the important issue of salt cedar and Russian 
olive control in the West.
    My name is Tim Carlson. I am executive director of the 
Tamarisk Coalition. The coalition is a nonprofit organization 
that represents a wide variety of interests throughout the 
Southwest, including land managers, cities and counties, 
environmental organizations, water conservation districts, 
farmers and ranchers.
    The mission of the Tamarisk Coalition is to provide 
education on the problem of the non-native invasive plant 
tamarisk--it is also known as salt cedar, so any time both 
words are used, it really means the same plant. It is also to 
help develop long-term management and funding structures to 
control its infestation. Although salt cedar is a primary 
invasive plant--we call it the poster child of non-native 
plants--impacting western rivers, other plants, notably Russian 
olive, cohabit with salt cedar and should be part of any river 
restoration action.
    The legislation introduced by Mr. Pearce includes 
significant on-the-ground demonstration projects. I would like 
to concentrate on five points that emphasize the importance of 
these large-scale demonstrations beyond the obvious benefits of 
site-specific salt cedar control and restoration.
    First, the demonstrations serve to help answer critical 
questions on what will be the true changes that will result 
after salt cedar control and restoration takes place; that is, 
the changes to water availability, both in the surface and 
ground water supplies, changes to water quality, changes to 
wildlife habitat, and biodiversity changes. Because these 
research activities go beyond single demonstrations at any 
single site in any State and will involve many Federal 
scientists, we encourage that research efforts that are tied to 
these demonstrations be 100 percent Federally funded.
    Second, our partners have identified four important issues. 
These issues include maintaining respect for existing State 
water laws and water rights; respect for private property 
rights; respect for existing infrastructure, such as water 
storage and delivery systems; and respect for endangered 
species. We believe that the large-scale demonstrations will 
show that salt cedar control and restoration can be successful 
and at the same time be supportive of these issues. In fact, 
both water rights and endangered species recovery should be 
enhanced under well designed demonstrations. This would be 
especially true for the endangered fish species in the Upper 
Colorado River.
    The third point is demonstrations will not solve the salt 
cedar problem. The salt cedar problem is much larger than what 
this bill can provide funding for. However, the demonstrations 
can be used as an educational and cooperational tool to help 
develop the strategies for long-term management and funding for 
salt cedar control.
    Fourth, the demonstrations can also be used to support 
international cooperation on salt cedar control between the 
U.S. and Mexico by including at least one border demonstration.
    Fifth, the demonstrations can also serve to foster work 
experience for youth through existing programs such as Youth 
Conservation Corps, AmeriCorps, and related State, Native 
American, and local youth programs.
    Finally, the question has to be asked, what will the public 
gain from these efforts? From a cost standpoint, salt cedar 
control and restoration is really low-hanging fruit. 
Preliminary cost estimates would indicate that long-term gains 
are 5 to 20 times less costly than new storage, water 
recycling, conservation, or expensive desalination programs.
    Beyond improving the abundance of water, the other 
important side benefits of salt cedar control and riparian 
restoration are: Water quality will be enhanced; wildlife 
habitat will be improved; there will be greater biodiversity 
among both plants and animals; and there will be improved 
conditions for human enjoyment of the river systems. The value 
of the improved viability to the West's rivers is difficult to 
measure in terms of dollars, but is considered to be highly 
significant.
    We believe that this legislation provides an appropriate 
level of effort to help gain protection of the West's limited 
water resources and riparian habitats from the infestation of 
salt cedar and Russian olive. The Tamarisk Coalition encourages 
Congress to pass and fund this legislation.
    Thank you for this opportunity to speak before this 
Committee.
    [The prepared statement of Mr. Carlson follows:]

    Statement of Tim Carlson, Executive Director, Tamarisk Coalition

    Dear Mr. Chairman and Members of the Committee:
    Thank you for this opportunity to present written testimony before 
your committee on the important issue of Salt cedar and Russian olive 
control in the West.
    The mission of the Tamarisk Coalition is to provide education on 
the problem of the non-native invasive plant Tamarisk, which is also 
known as Salt cedar, and to help develop long-term management and 
funding structures to control its infestation. Our goals are the 
restoration of native habitat to the West's rivers and streams, and the 
preservation of its water resources for beneficial uses.
    The proposed legislation, H.R. 2707--Salt Cedar and Russian Olive 
Control Demonstration Act, is an extremely important and needed piece 
of legislation. While the Salt cedar problem has been identified as a 
significant problem for almost 50 years, it has taken the drought of 
the past several years to gain widespread acceptance that solving this 
problem should be an important component of the West's water management 
strategy. H.R. 2707 provides significant on-the-ground demonstration 
projects that will help to answer critical questions on potential 
changes to water availability, water quality, habitat, and 
biodiversity. The legislation also identifies the critical issue of 
developing long-term management and funding strategies that could be 
implemented by Federal, State, local, and private land managers.
    The Tamarisk Coalition believes that this legislation provides an 
appropriate level of effort to help gain protection of the West's 
limited water resources and riparian habitats from the infestation of 
Salt cedar and Russian olive. This written testimony is divided into 
three sections that provide a background on the problem, suggested 
changes to the legislation, and important issues to consider.
Background
    Salt cedar is the primary non-native phreatophyte of concern in the 
West and thus has the dubious distinction as the ``poster child'' of 
non-native plants impacting the riparian zone of rivers and streams. 
Other plants, notably Russian olive (Elaeagnus angustifolia), co-habit 
with Salt cedar and also deserve attention. Therefore, within the 
context of this testimony, whenever the term ``Salt cedar'' is used, 
one must also consider Russian olive as the other principal invasive 
plant that may be important to control within riparian areas.
    Impacts--Salt cedar (Tamarix spp.) is a deciduous shrub/small tree 
that was introduced to the western U.S. in the early nineteenth century 
from Central Asia and the Mediterranean for use as an ornamental, in 
windbreaks, and for erosion control. Salt cedar is well suited to the 
hot, arid climates and alkaline soils common in the western U.S., and 
has escaped cultivation to displace native vegetation. It gradually 
became naturalized along minor streams in the southwest and by the mid-
twentieth century, Salt cedar stands dominated low-elevation (under 
6,500 feet) river and stream banks from Mexico to Canada. Salt cedar is 
now believed to cover anywhere between 1.0 and 1.5 million acres of 
land in the western U.S. and may be as high as 2 million acres 
(Zimmerman 1997). The severe impacts on riparian systems that this 
infestation causes throughout the West include (Carpenter 1998, DeLoach 
1997):
    <bullet> LSalt cedar populations develop into dense thickets, with 
as many as 3,000 plants per acre that can rapidly displace all native 
vegetation (e.g., cottonwoods and willows).
    <bullet> LAs a phreatophyte, Salt cedar invades riparian areas, 
leading to extensive degradation of habitat and loss of biodiversity in 
the stream corridor.
    <bullet> LExcess salts drawn from the groundwater by Salt cedar are 
excreted through leaf glands and are deposited on the ground with the 
leaf litter. This increases soil salinity to levels that kill saline 
intolerant willows and other plants and prevents the germination of 
many native plants.
    <bullet> LSalt cedar seeds and leaves lack nutrients and are of 
little value to wildlife and livestock.
    <bullet> LLeaf litter from Salt cedar tends to increase the 
frequency and intensity of wildfires which tend to kill many native 
plants but not Salt cedar.
    <bullet> LDense stands on stream banks may gradually cause 
narrowing of the channel and an increase in flooding. Channel narrowing 
along with Salt cedar-induced stabilization of stream banks, bars, and 
islands lead to changes in stream morphology, which can impact habitat 
for endangered fish.
    <bullet> LDense stands affect livestock by reducing forage and 
prevent access to surface water.
    <bullet> LAesthetic values of the stream corridor are degraded, and 
access to streams for recreation (e.g., boating, fishing, hunting, bird 
watching) is lost.
    While each of these points is important to one or more 
constituencies, the single most critical problem is that Salt cedar 
uses significantly more water than native vegetation that it displaces. 
This non-beneficial user of the West's limited water resources dries up 
springs, wetlands, and riparian areas by lowering water tables 
(Carpenter 1998, DeLoach 1997, Weeks 1987). As Salt cedar moves into 
adjacent upland habitats through the aid of its deep root system, it 
consumes even more water as it replaces the native grass/sagebrush/
rabbit brush communities (DeLoach 2002). Zaveta (2000) demonstrates 
that a program of Salt cedar control and revegetation would have clear 
economic, social, and ecological benefits. The National Invasives 
Species Council has identified Salt cedar as one of its primary 
targets, most western states have listed it on their noxious weed list, 
and Colorado Governor Bill Owens has issued an Executive Order to 
control Salt cedar on public lands within ten years.
    Water Usage by Different Vegetative Types--Limited evidence 
indicates that water usage per leaf area of Salt cedar and the native 
cottonwood/willow riparian communities may not be that different. 
However, because Salt cedar grows into extreme thickets, the leaf area 
per acre may actually be much greater; thus, water consumption would 
also be greater on an acre basis (Kolb 2001). Probably the most 
insidious aspect of Salt cedar and its consumption of water is that its 
much deeper root system (up to 100 feet compared to healthy cottonwoods 
and willows stands at 6 feet (Baum 1978, USDI-BOR 1995)) allows Salt 
cedar to grow further back from the river and thus can occupy a larger 
area and use more water across the floodplain than would be possible by 
the native phreatophytes. This is especially significant, because the 
adjacent uplands and floodplain typically occupy a cross-sectional area 
several times that of the riparian zone. In these areas, less dense 
areas of mesic plants can be replaced by Salt cedar resulting in 
overall water consumption several times that associated with these 
other plants (DeLoach 2002).
    From thirteen different studies conducted between 1972 and 2000 on 
Salt cedar evapotranspiration rates, the average water use reported is 
approximately 5.3 feet per year (Hart 2003). More recent work performed 
on the Pecos River in Texas over the last three years indicates water 
use by Salt cedar of 7.7 feet per year (Hart 2003). Recent research by 
the U.S. Department of Interior on the middle Rio Grande estimates 
evapotranspiration rates on the order of 4.3 feet per year (Interior 
2003). These studies were performed using different methods of 
measurement, at different locations, and for different densities of 
infestation. Native cottonwood/willow communities have been estimated 
to use approximately one foot less per year than Salt cedar (Weeks, 
1987) while the native shallow-rooted upland plant communities of 
grasses, sage, etc. principally use only the moisture received by 
precipitation. Unpublished research on the Bosque del Apache National 
Wildlife Refuge on the middle Rio Grande River in New Mexico indicates 
that Russian olive has very similar evapotranspiration rates as Salt 
cedar (Bawazir 2003).
    Estimates of Non-Beneficial Water Use--The term ``non-beneficial 
water use'' is defined as the difference in water consumption 
(evapotranspiration) between Salt cedar and the native plants it has 
replaced. Estimates on water consumption by Salt cedar vary a great 
deal depending on location, maturity, density of infestation, and depth 
to groundwater. This will also be true for the cottonwood/willow 
community. Using the above information, one can reasonably estimate 
that this non-beneficial use of water is approximately 1 foot per year 
for Salt cedar in the riparian areas that could support a cottonwood/
willow community and approximately 4 feet per year for the upland areas 
that could support a native grasses/sage/rabbit brush type of plant 
community. For the West, it is estimated that one-third to two-thirds 
of the land currently infested by Salt cedar was formerly occupied by 
cottonwood/willow communities and that the remaining percentage of land 
would have been occupied by grasses/sage/rabbit brush type of plant 
communities. If one takes the estimated infested acreage of 1.0 to 1.5 
million acres in the West, the estimated non-beneficial water 
consumption is approximately 2.0 to 4.5 million acre-feet per year. 
These estimated water losses represent enough water to supply upwards 
of 20 million people (Denver Water Board 2002) or the irrigation of 
over 1,000,000 acres of land. At a modest infestation rate of only 1% 
per year, these losses will increase by two-thirds in the next 50 
years. These values obviously represent a great deal of water that is 
being consumed beyond what the valuable native plants would have used. 
It would be even higher if the areas occupied by other non-native 
phreatophytes, such as Russian olive were included.
    Costs--Costs for removal vary depending on the expanse of the 
infestation, existence of other valuable plant species, and terrain. 
For aerial helicopter spraying with herbicide the cost is around $200 
to $250 per acre (Hart 2003, Lee 2002). While aerial herbicide spray is 
extremely effective in killing Salt cedar, it also kills most other 
vegetation types. For mechanical mulching and herbicide application the 
cost ranges from $300 to $800 per acre (McDaniel 2000, Taylor 1998, 
CWCB 2003). For hand clearing and herbicide application the cost can 
range from $1,500 to $5,000 per acre (Tamarisk Coalition 2002). 
Terrain, access, presence of other native vegetation, etc. all dictate 
which approach to use. No one approach is right for all situations. The 
U.S. Department of Agriculture recommends the strategy of Integrated 
Pest Management that matches the right methods for each situation. 
Additionally, a new bio-control approach that uses a Chinese leaf 
beetle is being researched by the U.S. Departments of Interior and 
Agriculture and may help further to reduce costs (De Loach 2002).
    Removal is only part of the cost. Restoration is the other 
component which is necessary to bring back the right native plants and 
restore habitat. If the objective is to only kill Salt cedar, other 
invasive noxious weeds will likely take their place if restoration is 
not part of the effort. Restoration may occur naturally where native 
plants are still viable or may require specialized efforts to restore 
the riparian lands. In general, costs may range from $50 to $1,500 per 
acre.
    The Tamarisk Coalition has estimated that the overall cost for 
control and restoration could average approximately $250 per acre-foot 
of water resources recovered (CWCB 2003). As a reference point, the 
cost of purchasing senior water rights in the Denver, Colorado area is 
valued at $4,000 to $12,000 per acre-foot (Franscell 2002).
    Beyond improving the abundance of water, the other important side 
benefits of Salt cedar control and riparian restoration are 1) water 
quality will be enhanced, 2) wildlife habitat will be improved, 3) 
there will be greater bio-diversity among both plants and animals, and 
4) there will be improved conditions for human enjoyment of the river 
systems. The value of this improved viability of the West's river 
systems is difficult to measure in terms of dollars but is considered 
to be highly significant.
Suggested Changes to H.R. 2707
    The Tamarisk Coalition offers for consideration the following three 
suggested changes to the H.R. 2707--Salt Cedar and Russian Olive 
Control Demonstration Act:
    1. LPage 3, Line 21: Add the following sentence: ``The Secretary 
shall also identify at least one international demonstration project 
between the U.S. and Mexico.'' This addition is important because Salt 
cedar infestations do not recognize political boundaries, and eventual 
control will require cooperation between both governments and will aid 
in meeting international agreements for water delivery.
    2. LPage 4, Line 20: Change sentence to read: ``The Federal share 
of the costs of any demonstration activity funded under this program 
shall be no more than 65 percent of the total cost. Research activities 
associated with demonstrations shall be 100% Federal share.'' This 
change is important because critical research issues on water 
availability, water quality, habitat, and bio-diversity benefit the 
entire West and are not solely a local issue. Additionally, this type 
of research will be a collaborative effort between Federal scientists 
and numerous universities throughout the West that are not project 
specific.
    3. LPage 5, Line 10: Add the following sentence: ``For 
demonstration projects, the Secretary is encouraged to award 
procurement contracts, grants, or cooperative agreements under this 
section to entities that include Youth Conservation Corps, AmeriCorps, 
or related partnerships with State, Native American, local or non-
profit youth organizations, or small or disadvantaged businesses where 
appropriate.'' This change would reinforce the use of youth programs 
for performing many of the labor-intensive activities associated with 
control and restoration.
Important Issues
    Tamarisk Coalition partners have raised four issues that are 
important to consider in the overall control of Salt cedar and 
restoration in the West. They are:
    1. LWater Rights--The control of Salt cedar should improve both 
groundwater and surface water supplies in the future. This is not the 
creation of new water but rather the prevention of a non-beneficial use 
of water and, therefore, no new water rights should be implied. Respect 
for existing state water law and water rights are important to 
maintain.
    2. LProperty Rights--While private property owners are some of the 
strongest supporters of this legislation, it is important to 
acknowledge that private property rights must be respected.
    3. LExisting Infrastructure--The rivers of the West are highly 
impacted by man to improve their capability to store and supply water 
(e.g., dams, irrigation systems) for beneficial use. Existing 
infrastructure is important for the continuation of these uses and Salt 
cedar control and restoration should respect these conditions.
    4. LEndangered Species--Protection of endangered species have been 
viewed in the past as a potential obstacle to Salt cedar control. This 
is not the case. The Final Southwestern Willow Flycatcher Recovery Plan 
(U.S. Fish and Wildlife Service 2002) does provide management 
approaches that will allow staged removal of Salt cedar and restoration 
to occur. The Upper Colorado River Endangered Fish Recovery Program 
also recognizes the impacts Salt cedar has had on river structure and 
its subsequent impact on fish breeding opportunities. The Endangered 
Fish Recovery Program is working directly with the Tamarisk Coalition 
to develop compatible Salt cedar control and restoration strategies 
that will enhance fish recovery.
    The value of well designed demonstration projects authorized under 
H.R. 2707 is that these projects will help to demonstrate that Salt 
cedar control and restoration can be successful while maintaining 
respect for water rights, property rights, existing infrastructure, and 
endangered species.
    The Tamarisk Coalition encourages Congress to pass and fund this 
legislation to help preserve the limited water resources of the West 
and to help restore riparian habitat. Thank you for this opportunity to 
present testimony before your committee.
                               References
Baum, B. R. 1978. The Genus Tamarix. Israel Academy of Sciences and 
        Humanities, Jerusalem. 209 pp.
Bawazir, A.S., New Mexico State University, Personal communication, 
        April 2003.
Carpenter, A. 1998. Element Stewardship Abstract for Tamarix 
        ramosissima Lebedour, Tamarix pentandra Pallas, Tamarix 
        chinensis Loureiro, and Tamarix parviflora De Candolle. The 
        Nature Conservancy, Arlington, Virginia.
CWCB 2003, Colorado Water Conservation Board, ``Impact of Tamarisk 
        Infestation on the Water Resources of Colorado'', May 30, 2003, 
        prepared by the Tamarisk Coalition.
DeLoach, J. 1997. Effects of Biological Control of Saltcedar (Tamarix 
        ramosissima) on Endangered Species: Biological Assessment. U.S. 
        Department of Agriculture, Temple, Texas.
DeLoach, J., R Carruthers, J. Lovich, T. Dudley, and S. Smith, 2002. 
        ``Ecological Interactions in the Biological Control of 
        Saltcedar (Tamarix spp.) in the United States: Toward a New 
        Understanding''--Revised.
Denver Water Board, 2002. ``Denver Water Comprehensive Annual Financial 
        Report 2001''.
Franscell, R., Denver Post, Drought years plumb the depths of water 
        rights, Conflicts inevitable in self-policing system based on 
        prior claims, September 10, 2002.
Hart, C.R., Texas A&M, Personal communication on the Pecos River 
        Ecosystem Project. March 2003.
Kolb, Thomas E. 2001 ``Water Use of Tamarisk and Native Riparian 
        Trees.'' Proceedings of the Tamarisk Symposium, September 26--
        27, 2001, Grand Junction, Colorado.
Lee, B., Northstar Helicopter. Personal communication, August 2002
McDaniel, K.C., and Taylor, J.P. Saltcedar Recovery After Herbicide-
        burn and Mechanical Clearing Practices, New Mexico State 
        University and U.S. Fish and Wildlife Service. 2000
Tamarisk Coalition, 2002. ``National Fish and Wildlife Foundation--
        Pulling Together Initiative Final Report on Tamarisk control in 
        the Upper Colorado River'', Project # 2001-0028-006.
Taylor, J.P., and McDaniel, K.C. Restoration of Saltcedar (Tamarix 
        sp.)--Infested Floodplains on the Bosque del Apache National 
        Wildlife Refuge. Weed Technology, 1998, Volume 12:345-352
Weeks, E., H. Weaver, G. Campbell and B. Tanner, 1987. Water use by 
        saltcedar and by replacement vegetation in the Pecos River 
        floodplain between Acme and Artesia, New Mexico. U.S. 
        Geological Survey, Reston, Virginia.
USDI-BOR 1995. ``Vegetation Management Study: Lower Colorado River, 
        Phase II.'' U.S. Department of Interior, Bureau of Reclamation, 
        Lower Colorado River, Draft Report, Boulder City, Nevada.
U.S. Department of Interior personal communications, 2003
U.S. Fish & Wildlife Service, ``Southwestern Willow Flycatcher 
        (Emidonax traillii extimus) Final recovery Plan'', August 2002.
Zavaleta, E., 2000. ``Chapter 12--Valuing Ecosystem Services Lost to 
        Tamarix in the United States; Invasive Species in a Changing 
        World'', Mooney, H. A. and R.J. Hobbs (eds.) Island Press, 
        Washington, D.C.
Zimmerman, J. 1997. Ecology and Distribution of Tamarix chinensis Lour 
        and T. parviflora D.C., Tamariccea. Southwest Exotic Plant 
        Mapping Program, U.S. Geological Survey.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Carlson.
    Dr. Redifer?

  STATEMENT OF JOHN REDIFER, Ph.D., DEPARTMENT OF SOCIAL AND 
             BEHAVIORAL SCIENCE, MESA STATE COLLEGE

    Mr. Redifer. Good morning. My name is John Redifer. I am an 
associate professor of political science at Mesa State College 
and vice president of the Tamarisk Coalition. I am also a past 
chair of the Mesa County Democratic Party, and have worked 
closely with Representative McInnis and his staff on the 
bipartisan issue of tamarisk control for the past several 
years.
    I would like to thank Chairman McInnis for inviting me to 
testify today. The congressman has never turned down the 
numerous requests from me to visit my classes at Mesa State, 
and I am grateful for this opportunity to return the favor.
    I would also like to thank Congressman McInnis as well as 
Congressman Pearce, Senators Domenici and Campbell for the 
leadership that they have provided in our efforts to control 
tamarisk.
    The recent drought and the water-stealing capacity of 
tamarisk have heightened the need to finally bring this 
invasive species under control. In the event that we have 
forgotten, the drought ravishing the American West has reminded 
our communities of just how precious and scarce water is in our 
part of the world. At the same time, record drought conditions 
have forced policymakers to more fully grasp the importance of 
maximizing the availability of this scarce commodity. 
Eradicating the pervasive presence of tamarisk along our rivers 
and streams should be a central component of our region's 
broader push to increase the availability of water.
    And so I want to applaud Congressmen Pearce, McInnis, and 
other sponsors of legislation for introducing the Salt Cedar 
and Russian Olive Control Demonstration Act. The demonstration 
projects identified in H.R. 2707 and the rest of the funding it 
provides for eradicating tamarisk are a great start to 
addressing the problem. However, the benefits of this bill are 
likely to erode over time if Congress fails to ensure that 
affected river basins infested with tamarisk have in place an 
adequately funded long-term management strategy that will not 
only eradicate existing tamarisk but will revegetate the 
infested areas and monitor them for any signs of reinfestation 
over time. We already know how to kill tamarisk, but this tree 
is extremely resilient and will quickly return if we don't have 
in place the means and the methods to ensure its total and 
complete demise.
    As currently written, H.R. 2707 acknowledges the importance 
of long-term management and funding strategies, but more could 
be done in the bill to assure that stakeholders at the Federal, 
State, and local levels establish and fund systematic tamarisk 
control programs. The lack of a systematic multi-stakeholder 
management and funding strategy is the single greatest hurdle 
that must be overcome if tamarisk is to be controlled over the 
long term. The National Invasive Species Council agrees that 
these two factors are the primary impediments to the control of 
not only tamarisk, but most invasive species. Without a long-
term management and monitoring regime, Federal, State, and 
local authorities will spend millions of dollars chopping down 
these water-thirsty trees in the near term, only to see 
tamarisk reassert their control over the West's waterways in 
the long run.
    I would encourage this Committee to look at H.R. 695, 
sponsored by Congressman McInnis, for a way to allocate 
resources for the development of a process model that can 
assist each river basin as it constructs funding and management 
strategies. This will make an already strong piece of 
legislation substantially stronger and more responsive to the 
challenges that tamarisk pose over the long run.
    While I have no preconceived notions on what such a 
strategy will ultimately look like, I would like to describe a 
few general principles that any long-term tamarisk strategy 
should embody.
    First and foremost, the strategy must adequately address 
all three phases of tamarisk control, to include eradication, 
revegetation, and monitoring.
    Second, the strategy must develop and be supported by a 
coalition of Federal, State, local, and private land managers 
responsible for implementing it. The war against tamarisk will 
be won in the trenches, and those that will fight it there must 
believe that the strategy employed will work. This is best 
achieved if the stakeholders are implementing a strategy that 
they have developed.
    Third, the strategy should be developed river basin-by-
river basin, State-by-State. While the process for developing a 
strategy may be the same, the strategy itself may differ based 
on the unique characteristics and political relationships 
between stakeholders in each river basin.
    Fourth, the process for developing strategies should be 
facilitated by an honest broker--someone the stakeholders do 
not perceive as trying to force a solution and will allow them 
to dominate either the implementation of the plan or the 
funding allocated to it.
    Fifth, the strategy must address how resources, money, 
equipment, and personnel will be pooled to systematically 
eradicate, revegetate, and monitor the effort to control 
tamarisk. An effective strategy may require public land 
managers to dedicate resources under their immediate control to 
efforts outside their political jurisdictions.
    Sixth, the strategy must provide a voluntary, non-coercive 
means for encouraging local property holders to provide access 
to their land for the purpose of conducting operations related 
to controlling tamarisk.
    Finally, the strategy must include an educational component 
designed to create public awareness of the problem and the need 
to remedy it. Creating public awareness of tamarisk and the 
benefits associated with its control will be critical to the 
provision of an adequate funding source. We cannot expect the 
Federal Government to fund the entire cost of controlling 
tamarisk. Obviously, the Feds should be responsible for their 
fair share of the costs, but State and local Governments will 
have to provide the rest. We must be able to demonstrate to 
citizens that the benefits of tamarisk control far exceed its 
costs, and that this effort will be completed in a specific 
timeframe after which funding will no longer be required. Under 
these conditions, citizens have demonstrated time and again 
their willingness to support Government programs.
    If we can develop a process that is successful in producing 
a long-term strategy and funding source, the ramifications will 
far exceed the problem itself. We will have a process model 
that can then be exported to deal with the tamarisk problem in 
other river basins and even other invasive species.
    If properly amended to ensure funding for the development 
of a process model, H.R. 2707 will have the potential to help 
solve the vast array of problems requiring multi-stakeholder 
cooperation. Without this systematic multi-stakeholder 
approach, we will continue to address the problem of tamarisk 
control in a piecemeal fashion that will most assuredly kill a 
lot of trees only to see them grow back again.
    This concludes my statement. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Redifer follows:]

    Statement of Dr. John Redifer, Associate Professor of Political 
     Science, Mesa State College, and Vice President, The Tamarisk 
                        Coalition, on H.R. 2707

    Good morning, my name is Dr. John Redifer. I am an Associate 
Professor of Political Science at Mesa State College and Vice-President 
of the Tamarisk Coalition. I am also a past chair of the Mesa County 
Democratic Party and have worked closely with Rep. McInnis and his 
staff on the bipartisan issue of tamarisk control for the past two 
years.
    I would like to thank Chairman McInnis for inviting me to testify 
today. The congressman has never turned down the numerous requests from 
me to visit my classes at Mesa State and I am grateful for this 
opportunity to return the favor. I would also like to thank Congressman 
McInnis as well as Congressman Pearce and Senators Domenici and 
Campbell for the leadership they have provided in our efforts to 
control tamarisk.
    The recent drought and the ``water stealing'' capacity of tamarisk 
have heightened the need to finally bring this invasive species under 
control. In the event that we had forgotten, the drought ravishing the 
American West has reminded our communities of just how precious and 
scarce water is in our part of the world. At the same time, record 
drought conditions have forced policy makers to more fully grasp the 
importance of maximizing the availability of this scarce commodity. 
Eradicating the pervasive presence of tamarisk along our rivers and 
streams should be a central component of our region's broader push to 
increase the availability of water. And so I want to applaud 
Congressmen Pearce, McInnis and the other sponsors of this legislation 
for introducing the Salt Cedar and Russian Olive Control Demonstration 
Act. The demonstration projects identified in H.R. 2707 and the rest of 
the funding it provides for eradicating tamarisk are a great start to 
addressing the problem. However, the benefits of this bill will likely 
erode over time if Congress fails to ensure that affected river basins 
infested with tamarisk have in place an adequately funded long term 
management strategy that will not only eradicate existing tamarisk, but 
will revegetate the infested areas and monitor them for any signs of 
re-infestation over time. We already know how to kill tamarisk, but 
this tree is extremely resilient and will quickly return if we don't 
have in place the means and the methods to ensure its total and 
complete demise.
    As currently written H.R. 2707 acknowledges the importance of long 
term management and funding strategies, but more could be done in the 
bill to ensure that stakeholders at the Federal, state and local levels 
establish and fund systematic tamarisk control programs. The lack of a 
systematic, multi-stakeholder management and funding strategy is the 
single greatest hurdle that must be overcome if tamarisk is to be 
controlled over the long term. The President's National Invasive 
Species Council agrees that these two factors are the primary 
impediments to the control of not only tamarisk but most invasive 
species. Without a long term management and monitoring regime, Federal, 
state and local authorities will spend millions of dollars chopping 
down these water-thirsty trees in the near term only to see tamarisk 
re-assert their control over the West's waterways in the long run. I 
would encourage this committee to look at H.R. 695 sponsored by 
Congressman McInnis for a way to allocate resources for the development 
of a ``process model'' that can assist each river basin as it 
constructs their funding and management strategies. This will make an 
already strong piece of legislation substantially stronger, and more 
responsive to the challenges that tamarisk pose over the long run.
    While I have no pre-conceived notions of what such a strategy will 
ultimately look like, I would like to describe a few general principles 
that any long-term tamarisk strategy should embody. First and foremost, 
the strategy must adequately address all three phases of tamarisk 
control to include eradication, revegetation and monitoring. Second, 
the strategy must be developed and supported by a coalition of Federal, 
state, local and private land managers responsible for implementing it. 
The war against tamarisk will be won in the trenches. And those who 
will fight it there must believe that the strategy employed will work. 
This is best achieved if the stakeholders are implementing a strategy 
that they have developed. Third, the strategy should be developed river 
basin by river basin, state by state. While the process for developing 
a strategy may be the same, the strategy itself may differ based on the 
unique characteristics and political relationships between stakeholders 
in each river basin.
    Fourth, the process for developing a strategy should be facilitated 
by an ``honest broker'', someone that the stakeholders do not perceive 
as trying to force a solution that will allow them to dominate either 
the implementation of the plan or the funding allocated to it.
    Fifth, the strategy must address how resources; money, equipment 
and personnel will be pooled to systematically eradicate, revegetate 
and monitor the effort to control tamarisk. An effective strategy may 
require public land managers to dedicate resources under their 
immediate control to efforts outside their political boundaries.
    Sixth, the strategy must provide a voluntary, non-coercive means 
for encouraging local property holders to provide access to their land 
for the purpose of conducting operations related to controlling 
tamarisk. Many property owners are understandably suspicious of even 
the most beneficial government action and a means must be developed to 
abate those fears. We know that tamarisk does not respect either 
property boundaries or any other artificial jurisdictional 
distinctions. Success against tamarisk will only come if affected land 
owners of every type are equally committed to its eradication. 
Accordingly, a successful tamarisk suppression program will need to 
include non-threatening mechanisms that encourage the cooperation of 
private land owners.
    Finally, the strategy must include an educational component 
designed to create public awareness of the problem, and the need to 
remedy it. Creating public awareness of tamarisk and the benefits 
associated with its control will be critical for the provision of an 
adequate funding source. We cannot expect the Federal Government to 
fund the entire cost of controlling tamarisk. Obviously, the feds 
should be responsible for their fair share of the costs but state and 
local governments will have to provide the rest. We must be able to 
demonstrate to citizens that the benefits of controlling tamarisk far 
exceed its costs and that this effort will be completed in a specific 
time frame after which funding will no longer be required. Under these 
conditions citizens have demonstrated time and again their willingness 
to support government programs.
    If we can develop a process that is successful in producing a long-
term strategy and funding source to control tamarisk the positive 
ramifications will far exceed the problem itself. We will have a 
process model that can then be exported to deal with the tamarisk 
problem in other river basins and even other invasive species. If 
properly amended to ensure funding for the development of a ``process 
model'', then, H.R. 2707 will have the potential to help solve a vast 
array of problems requiring multi-stakeholder cooperation. Without this 
systematic, multi-stakeholder approach, we will continue to address the 
problem of tamarisk control in a piecemeal fashion that will most 
assuredly kill a lot of trees only to see them grow back again.
    This concludes my prepared statement. I will be happy to answer any 
questions the committee may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Doctor.
    Mr. Davis?

              STATEMENT OF TOM W. DAVIS, MANAGER, 
                  CARLSBAD IRRIGATION DISTRICT

    Mr. Davis. Mr. Chairman, Committee members, I consider this 
an opportunity to give you my thoughts on this particular piece 
of legislation.
    I am Tom Davis. I manage Carlsbad Irrigation District, and 
prior to that I worked for 16 years with the U.S. Forest 
Service in various capacities throughout the Southwest and the 
State of Texas.
    I want to thank Congressman Pearce for his work in bringing 
this bill to this stage. I agree with what the testifier just 
said--a lot of the salt cedar work that has been done in the 
past has been very piecemeal, and it has been done by some of 
us that haven't been capable or had the funding to conduct it 
in such a fashion to really pinpoint all the complexities in 
the results of the control and the need to revegetate, and our 
ability to guarantee revegetation has been lacking.
    I have had quite a bit of experience the last 15 years in 
managing salt cedar, but my experience has been limited to the 
Pecos basin in New Mexico. Pecos basin in New Mexico is 
considerably different even from the Rio Grande basin in New 
Mexico, or the Salt River basin in Arizona, or the Wichita 
River basin in Oklahoma.
    So the advantage to this particular piece of legislation is 
that we look on a broad scale, globally, at salt cedar 
infestations in a wide range of different biological 
conditions, and we are able to get at permanently, once and for 
all settle the issue of not only how do we kill salt cedar--I 
think we are getting on top of that issue--but how do we 
reestablish native vegetation, how do we mitigate for some of 
the benefits that salt cedar serves, in some cases.
    I support the goals of H.R. 2707. In particular, what we 
are doing here is establishing demonstrations, like stated, 
globally, before we go out and attempt to spend money on large-
scale projects that would invariably make some mistakes. These 
demonstration projects will be able to look at all the what-if 
situations, determine ways to mitigate for those situations 
prior to making large-scale mistakes that will invariably 
damage the ecosystems for a long period of time. Most of salt 
cedar occur in Southwestern United States and, as you know, 
Nature is not as forgiving out there as it is maybe back here 
in the East or in the central area of the United States. When 
rainfall regimes are below 25 inches, it is very difficult to 
mitigate for a mistake made. It takes years to do that.
    So this demonstration project is so critical that we look 
at can and can't be done in various ecosystems, various 
rainfall belts, and I think it is critical that we do this, 
particularly the--my experience, and I am president of a 
nonprofit corporation that was established in 1992 to do this 
very thing. We looked at 5,000 acres of salt cedar, or which 
3,800 acres of that was total, 100 percent canopy cover of salt 
cedar. We did post studies there of--wildlife studies with New 
Mexico State University, we established monitoring wells, and 
with the help of Congressman Skeen, a former colleague of this 
body, we were able to fund this demonstration project. And we 
struggled for years.
    Killing the salt cedar wasn't as difficult as 
reestablishing vegetation. We found that to be very difficult. 
We also found, just as the previous witness testified, salt 
cedar is very resilient. Not only is it difficult to kill, but 
it is going to come back. Once conditions are favorable again, 
the seeds are out there by the billions and it is going to come 
back. So it continually calls for follow-up action to prevent 
reinfestation. Reinfestation can be controlled somewhat if you 
get a good established native vegetation in place, which is 
difficult to do often in our Southwestern regions because of 
very few years, or favorable years, to reestablishing 
vegetation. And in looking at this bill, that is one of the 
main things that is called for in 3(a), is looking at how to 
not only control the salt cedar, but also look at how to 
establish revegetation of native vegetation. That is a 
difficult process, we have found in the past.
    Although salt cedar is an exotic species, I am convinced 
that it may be here to stay, and we may have to figure out a 
way to keep it in control as much as possible and encourage our 
native vegetation as much as possible. But it is going to be 
very difficult in the long term to totally eradicate salt 
cedar. I think our greatest challenge is how to successfully 
and economically reestablish the native vegetation and how to 
prevent salt cedar from reestablishing in areas that we 
previously controlled it. And I believe that this bill will--
the implementation of these demonstration projects will get at 
that very thing.
    I understand that this demonstration, this bill will 
provide for multiple projects to be conducted in a variety of 
river systems throughout the western United States. And the 
importance of this, I believe, is that these demonstrations 
will be conducted by non-biased professionals, representatives 
of State and Federal agencies, universities, national 
laboratories, private contractors. And I think that is what has 
been needed for a number of years, is to really have a look at 
this thing by people that really aren't biased one way or the 
other. Salt cedar control has been sold, I think, as a silver 
bullet to our water problems in the Southwest in a lot of 
cases, and I do believe that each salt cedar plant is a small 
pump that is evapotranspirating water into the atmosphere. But 
I think that we need to really get at the heart of this issue 
of water savings and how much water replacement vegetation 
uses. And this bill will provide for that opportunity with 
these demonstration projects.
    I apologize, Mr. Chairman, for going over my time, but I 
will be happy to answer any questions at the appropriate time. 
Thank you.
    [The prepared statement of Mr. Davis follows:]

   Statement of Tom W. Davis, Manager, Carlsbad Irrigation District, 
                   Carlsbad, New Mexico, on H.R. 2707

    I am Tom W. Davis. Since 1987 I have been the Manager of the 
Carlsbad Irrigation District. For the sixteen years prior to my current 
employment, I was employed by the U.S. Department of Agriculture Forest 
Service. During the past fifteen years I have had extensive experience 
in control and/or management of salt cedar (tamarisk spp.) in the Pecos 
Basin in New Mexico using chemical and mechanical methods.
    In recent years, driven primarily by drought conditions and water 
demands throughout the western United States, a tremendous amount of 
interest has been generated in salvaging water by eradicating salt 
cedar and to a lesser extent, Russian olive. This movement has been 
promoted by some as the ``Silver Bullet'' to increasing flowing water 
and restoring native riparian vegetation in our rivers. It is all too 
easy to over-simplify the complex nature of river systems and over-
promote the possible benefits of salt cedar removal while overlooking 
the possible unintended negative impacts of such actions or any 
environmental virtues salt cedar might provide.
    However, salt cedar and Russian olive control is not a new concept 
along the Pecos River. In 1946 Royce Tipton, a hydrologist working with 
the National Water Planning Board, convinced both the states of New 
Mexico and Texas to sign the Pecos River Compact appropriating the 
waters of the Pecos River between the two states. The primary 
underpinning of this allocation of the flows of the Pecos was the 
perceived water salvage potential resulting from the eradication of 
non-native phreatophytes (salt cedar).
    Public Law 88-594, 78 Stat. 942 was signed on September 12, 1964 
authorizing the Secretary of Interior to carry out a continuing program 
to reduce non-beneficial consumptive use of water in the Pecos River 
Basin in New Mexico and Texas. The Bureau of Reclamation was charged 
with the responsibility of implementing this project. Eventually, 
36,000 acres in New Mexico and about 17,000 acres in Texas were 
mechanically cleared in the Pecos River Flood Plain. The areas 
originally cleared are maintained as cleared today.
    G. E. Welder, a hydro-geologist with the U.S. Geological Survey, 
completed and published in 1988 the results of a ten-year study 
attempting to quantify any additional base flows in a specific reach of 
the Pecos River resulting from eradication of 20,000 acres of salt 
cedar from that particular reach of the river flood plain. This study 
was not able to specifically quantify any increases in river base 
flows, but indicated that evapotransportation (ET) had been reduced by 
removing salt cedar from the flood plain vegetation. The study could 
only speculate as to the fate of any salvaged water made possible by a 
reduction in ET.
    However, in today's environment of increased demands on our river 
systems, we are obligated to investigate every option to maintain river 
flows. This legislation provides the opportunity to establish several 
demonstration projects. These projects will take another look at 
determining the merits of salt cedar removal, and monitor, measure and 
track any salvaged water and increased river flows. Using today's 
technology we must not only attempt to quantify actual water salvaged 
by reducing ET, but we must be certain of the environmental impacts, 
monetary costs and effectiveness associated with the different methods 
of salt cedar and Russian olive control. Also, we must mitigate the 
unintended consequences of removal of these species and prove reliable 
methods of re-establishing native vegetation. We must determine how to 
replace the virtues of salt cedar after its removal, such as stream 
bank stabilization and nesting sites for birds.
    These demonstration projects must be conducted in a variety of 
river systems throughout the western United States by non-biased 
professionals, representatives of Federal and state agencies, 
universities, national laboratories and private contractors. The 
knowledge gained from these demonstrations will be critical in 
conducting proper future management of our riparian ecosystems and 
stabilizing river flows.
    This legislation provides for all of these elements and more. I 
request that you vote in support of this bill.
    Thank you for the opportunity to comment on this bill.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Davis.
    Mr. Kershaw?

   STATEMENT OF JOHN R. KERSHAW, PRESIDENT, IMPERIAL VALLEY 
   CONSERVATION RESEARCH CENTER COMMITTEE, IMPERIAL COUNTY, 
                           CALIFORNIA

    Mr. Kershaw. Mr. Chairman, I am going to summarize my 
prepared remarks in the interests of time.
    I am John R. Kershaw, a resident of Brawley, California, in 
Imperial County, where I have been engaged in farming and 
ranching and agricultural business enterprise for over 40 
years. I also serve as president of the nonprofit Imperial 
Valley Conservation Research Center Committee, a unique 
partnership between agricultural community and the Brawley 
Research Station.
    I am here today on behalf of the Imperial County Board of 
Supervisors, chaired by Mr. Joe Maruca, and also from Mr. 
Stephen Birdsall, who is our ag commissioner, and also he is 
the one who is spearheading our area's tamarisk control 
efforts. Mr. Birdsall's office also coordinates a weed 
management coalition involving his office, Imperial Irrigation 
District, the California Department of Food and Agriculture, 
University of California Extension, and the USDA APHIS Agency. 
This group has targeted tamarisk as a major invasive species 
for strong controls.
    Salt cedar has had a substantial presence in this entire 
region for many years.
    Diversified farming and ranching is a cornerstone to the 
region's economic base, where you must use innovative 
approaches to address the increasing demand for a diminishing 
water supply. As the Members of Congress are aware, Imperial 
County is experiencing tremendous pressures to reduce its use 
of Colorado River water, and is engaged in ongoing negotiations 
dealing with the interests of other areas in their search for 
additional water supplies.
    We feel that by controlling the incredible water thievery 
of the salt cedar population in the region, and replacing this 
aggressive invasive plant species with the native plant 
communities that once flourished therein, the availability of 
Colorado River water could be increased, along with the 
restoration of habitats conducive to wildlife.
    And of course, the general taxpaying would also benefit 
significantly from the control of salt cedar through expanded 
water availability at relatively low cost, versus other means 
that are being explored in the search for more abundant water 
resources.
    We believe the control of salt cedar can have a relatively 
fast benefit ratio to augment existing strained water supplies. 
This water savings no doubt would be significant and should 
provide a more reasonable and less costly timetable for 
developing other water resources.
    Imperial County Agricultural Commissioner's office and the 
Brawley Research Station have been building data for some time 
on ways in which to control salt cedar and the benefits from 
such an accomplishment.
    We know that extensive tests by USDA-ARS have shown the 
Chinese leaf beetle to be a selective feeder of the species of 
salt cedar. An APHIS scientist based at the Brawley Research 
Station has been researching new bio control agents and is 
excited about the Fish and Wildlife Service opening up the 
Northern tier above the 37th parallel for bio control releases. 
He is anxious to begin testing these agents so selections can 
be made as to the correct strain.
    This same APHIS scientist is also studying the effects of 
replacing salt cedar with native vegetation on non-target 
organisms, seeking to determine any collateral defects in data 
that shows costs and benefits. We feel this is an important 
area to research as serious salt cedar remediation gets under 
way--what will be the impacts of the control efforts on non-
targets?
    The Imperial County ag commissioner's office has been 
seeking resources to complete a survey and data collection of 
salt cedar sites identified with GPS coordinates. Target areas 
are desert springs and oases and riparian areas. The goal is to 
evaluate these sites for control and restoration projects and 
determine the best combination of control and restoration 
methods for the chosen sites, and implement those methods.
    On behalf of Imperial County, I want to state support for 
H.R. 2707. We are grateful to its authors, including 
Representative Duncan Hunter. Having served as a Member of 
Congress for 20 years prior to being redistricted fully to the 
San Luis area, Mr. Hunter has a strong familiarity with our 
County, its economic base, and reliance on the Colorado River 
with an acute awareness of the needs to conserve and protect 
our precious water resource.
    We would endorse the Tamarisk Coalition's concern for 
restricting the Federal support for demonstration projects 
provided in H.R. 2707 to 65 percent, and we request that the 
Committee amend the language of H.R. 2707 so that the Federal 
share of the cost of any activity funded under this program 
shall be 100 percent of the total cost.
    I want to assure the USDA and Department of Interior that 
the facilities of Brawley Research Station are available to 
deal with the salt cedar problem, and I am certain the same can 
be said of the facilities of the ag commissioner's office.
    Lastly, I thank the members of this Committee for the 
opportunity to appear before you, and hopefully, this hearing 
will lead to the enactment of a demonstration program to assess 
potential savings through control of salt cedar and Russian 
olive invasive species.
    Thank you.
    [The prepared statement of Mr. Kershaw follows:]

Statement of John R. Kershaw, Imperial County, California, on H.R. 2707

    Mr. Chairman, I am John R. Kershaw, a resident of Brawley, 
California in Imperial County, where I have been engaged in farming and 
ranching and agricultural business enterprise for over 40 years. I 
serve as President of the Imperial Valley Conservation Research Center 
Committee, a unique collaborative partnership between the agricultural 
community and the Brawley Research Station where there is always a 
lively agenda dealing with the invasive species spectrum, ever-evolving 
exotic crop pests and disease, bio controls, salinity/drainage trials, 
and water management including remediation and reuse. The Brawley 
Station has been lauded since its inception in 1951 for an impressive 
registry of accomplishment dealing with diversified agriculture and 
water-related research.
    I bring you greetings from the Imperial County Board of 
Supervisors, chaired by Mr. Joe Maruca, and also from Mr. Stephen 
Birdsall, who is spearheading our area's tamarisk control efforts. Mr. 
Birdsall's office also coordinates a Weed Management coalition 
involving his office, the Imperial Irrigation District, the California 
Department of Food & Agriculture, the University of California 
Extension, and the USDA-APHIS agency. This group has targeted tamarisk 
as a major invasive species for strong management controls.
    Imperial County is a hub of the Southwestern desert region whose 
borders merge compatibly with the great Yuma and Palo Verde Valleys to 
the East and Northeast, the tremendous Coachella Valley and Inland 
Empire Counties to the North and Northwest, and the renowned San Diego 
County complex to the West. Also, we have a strong cooperative 
relationship, especially in agricultural matters, with our significant 
Baja California neighbor to the South.
    Salt Cedar has had a substantial presence in this entire region for 
many years.
    Diversified farming and ranching is a cornerstone to the region's 
economic base where we must use innovative approaches to address the 
increasing demand for a diminishing water supply. As the Members of 
Congress are aware, Imperial County is experiencing tremendous 
pressures to reduce its use of Colorado River water and is engaged in 
ongoing negotiations dealing with the interests of other areas in their 
search for additional water supplies.
    We feel that by controlling the incredible water thievery of the 
Salt Cedar populations in the region and replacing this aggressive 
invasive plant species with the native plant communities that once 
flourished therein, the availability of Colorado River water could be 
increased along with the restoration of habitats conducive to wildlife. 
The public would benefit from the greater recreational aspects of these 
habitats along with a more suitable riparian environmental scenario.
    The general taxpaying public would also benefit significantly from 
the control of Salt Cedar through expanded water availability at 
relatively low costs versus other means that are being explored in the 
search for more abundant water resources. I am informed by the 
International Center for Water Technology at Fresno, CA, that access to 
useable water is developing into the greatest challenge of this 
century. We absolutely must develop and deploy new technologies that 
maximize the effectiveness of water use for urban, environmental, and 
agricultural application.
    As premier and affluent as America is versus most nations, we rank 
63rd in the quantity of water among all countries. It is estimated that 
our water availability per person will drop by one-third in the next 20 
years.
    Rick Weiss, a news reporter, recently penned an article about how 
the dwindling of clean, fresh water is forcing scientists to go to such 
extremes as seismic and core-drilling technologies in search for rivers 
and lakes said to lie far beneath the surface of the earth--aquifers 
that contain ``fossil'' water as much as a million years old.
    That's promising but this kind of water development no doubt will 
be very costly; as will be the desalination of salt water and other 
means to find greater supplies. It is reliably estimated that some 
supplemental water supplies can take 20 years or longer to develop and 
finance.
    We believe the control of Salt Cedar can have a much faster benefit 
ratio to augment existing strained water supplies. This water savings 
no doubt would be significant and might provide a more reasonable and 
less costly timetable for developing other water resources.
    The Imperial County Agricultural Commissioner's Office and the 
Brawley Research Station have been building data for some time on ways 
in which to control Salt Cedar and the benefits from such an 
accomplishment.
    We know that extensive tests by the USDA-ARS have shown a leaf 
beetle, Diorehabda elongate, to be a selective feeder of a species of 
Salt Cedar. An APHIS scientist at the Brawley Research Station has been 
researching new bio control agents and is excited about the Fish & 
Wildlife Service opening up the Northern tier above the 37th parallel 
for bio control releases. He is anxious to begin testing these agents 
so selections can be made as to the correct strain.
    This same APHIS scientist is also studying the effects of replacing 
Salt Cedar with native vegetation on non-target organisms, seeking to 
determine any collateral defects and data that shows costs and 
benefits. We feel this is an important area to research as serious Salt 
Cedar remediation gets underway--what will be the impacts of the 
control efforts on non-targets?
    As mentioned earlier, systematically reducing the abundance of Salt 
Cedar would allow the presently depressed native plant communities of 
western riparian areas to recover and also encourage wildlife 
populations to increase, including several species that are declining, 
are threatened or endangered.
    One such bird is the endangered Southwestern subspecies of the 
Willow Flycatcher. While this bird utilizes the Salt Cedar for habitat, 
the Salt Cedar also displaces other native plants which harbor insects 
important to the Flycatcher's diet.
    The Imperial County Agricultural Commissioner's Office has been 
seeking resources to complete a survey and data collection of Salt 
Cedar sites identified with GPS coordinates. Target areas are desert 
springs/oasis and riparian areas. The goal is to evaluate these sites 
for control/restoration projects and determine the best combination of 
control and restoration methods for the chosen sites and implement 
those methods. This would include: biological, herbicides, cutting 
followed by herbicide treatment on stumps, mechanical removal by 
cutting or bulldozing, flooding, burning. Additionally, partial cutting 
would be followed by burning and competition by supporting regrowth of 
native plants. Mr. Birdsall's plan would involve monitoring to assess 
the project's success.
    I am refraining from referencing much of the diagnostics relative 
to tamarisk including the estimated water-extortion of this facultative 
phreatophyte owing to the belief that representatives of the Forest 
Service and Department of Interior or others at today's hearing will 
provide these insights and explanations.
    However, we feel our region is victimized by the incessant 
expansion of this plant species. Its naturalization along the Colorado 
River and our important farming and ranching areas contributes to 
increased salinity of surface soil that renders it inhospitable to 
native plant species, lowers surface water tables, and uses more water 
than the native habitats it displaces.
    On behalf of Imperial County, I want to state support for H.R. 
2707. We are grateful to its authors, including Representative Duncan 
Hunter. Having served as our Member of Congress for 20 years prior to 
being redistricted fully to the San Diego area, Mr. Hunter has a strong 
familiarity with our county, its economic base, and reliance on the 
Colorado River with an acute awareness of the need to conserve and 
protect our precious water resources.
    We would endorse the Tamarisk Coalition's concern for restricting 
the Federal support for demonstration projects provided for in H.R. 
2707 to 65 percent. We believe the need to deal such an obvious 
depleter of a precious resource would be justification for the Federal 
treasury to support these projects in the totality of their expenses. 
Therefore, we request that the Committee amend the language of H.R. 
2707 so that the Federal share of the costs of any activity funded 
under this program shall be 100 percent of the total cost. Our need to 
deal with the Salt Cedar problem is among the greatest of any area but 
our economic condition is among the poorest of many areas, especially 
in the State of California.
    Further, I thank the Members of this Committee for the opportunity 
to appear before you and hopefully this hearing will lead to the 
enactment of a demonstration program to assess potential savings 
through control of Salt Cedar and Russian Olive invasive species.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Kershaw. I might mention that 
Mr. Hunter has been very helpful with the Committee on this 
particular issue. As you know now, of course, he chairs the 
Defense Committee. I am trying to get him to send a few 
military weapons. Maybe we could wipe the whole thing out. But 
they are a little more destructive than we probably want at 
this point, to deploy. But anyway, I do want you to know Mr. 
Hunter has been very helpful to the Committee.
    Mr. Sulnick, you may proceed.

          STATEMENT OF BOB SULNICK, CAMPAIGN MANAGER, 
              ALLIANCE FOR THE RIO GRANDE HERITAGE

    Mr. Sulnick. Mr. Chairman, members of the Committee, thank 
you for the opportunity to testify.
    My name is Robert Sulnick. I am the campaign manager for 
the Alliance for the Rio Grande Heritage. Our organization 
spans a distance between southern Colorado throughout New 
Mexico and into Texas. Our members include Amigos Bravos, 
Audubon, Defenders of Wildlife, Forest Guardians, Land and 
Water Fund of the Rockies, New Mexico PIRG, Rio Grande 
Restoration, Rio Grande/Rio Bravo basin Coalition, San Luis 
Valley Ecosystem Council, Southwest Environmental Center, the 
Sierra Club, and World Wildlife Fund. Alliance members have 
worked on salt cedar-Russian olive removal throughout the Rio 
Grande basin, including Presidio, Texas, Soccoro, New Mexico, 
Alamosa, Colorado, and the Albuquerque Reach of the Rio Grande 
watershed.
    Last year, in the New Mexico State legislature, the 
alliance worked with the New Mexico State Association of Soil 
and Water Conservation Districts to secure a $5 million 
appropriation for salt cedar control and reestablishment of 
native vegetation and habitat.
    The alliance enthusiastically supports H.R. 2707. The 
approach of undertaking demonstration projects to evaluate the 
most effective for salt cedar-Russian olive removal is endorsed 
by the alliance. In our experience, it is particularly 
important to learn when and how to use targeted aerial spraying 
and when not to use aerial spraying, particularly in cases 
where native species or valuable pasture are present. We also, 
in addition to supporting mechanical spraying, support a pilot 
project involving the use of goats.
    We are particularly pleased with H.R. 2707's attention to 
monitoring. In our experience, few resources have been provided 
for long-term monitoring of salt cedar-Russian olive removal 
projects. Without monitoring, it is impossible to establish a 
viable approach to solving these problems.
    Revegetation with native plants, in our view, is essential 
if these kinds of projects are to succeed. Absent revegetation 
and habitat restoration, it has been our experience that 
invasive species simply return and removal is ineffective.
    Finally, the projects to be funded by H.R. 2707 are worth 
undertaking even if they do not salvage one acre-foot of usable 
water. Although we would expect and desire a measurable 
increase in the availability of water to address water shortage 
problems, in our experience, because of the connection between 
surface water and groundwater, it is possible that expected 
gains from eradication will, in some instances, remain in the 
groundwater system. If such is the case, the resulting 
elevation of water tables and the benefits to both agriculture 
and wildlife are well worth undertaking the demonstration 
projects presented by this legislation.
    As a New Mexican, I would particularly like to thank Mr. 
Pearce for introducing this legislation and Congresswoman 
Wilson and Congressman Udall for cosponsoring. I would also 
like to acknowledge the leadership of Senators Domenici and 
Bingaman in this effort. We wholeheartedly and enthusiastically 
support the bill.
    Thank you, Mr. Chairman.
    I would also like to mention that I was married in Golden, 
Colorado, so I feel some relationship to the Coloradans on the 
Committee.
    [The prepared statement of Mr. Sulnick follows:]

      Statement of Bob Sulnick on behalf of Steve Harris, Chair, 
             Alliance for Rio Grande Heritage, on H.R. 2707

    Mr. Chairman, The Alliance for Rio Grande Heritage and its member 
groups have, over the past seven years, devoted their private resources 
to the problem of restoring the ecological health and integrity of the 
Rio Grande in Southern Colorado, New Mexico and West Texas. The Rio 
Grande problem is a difficult one stemming, as it does, from a century 
and a half of intensive development and control of land and water 
resources. Today, we are left with a river transformed by flood control 
and water diversion projects, a river that occupies only a portion of 
its historic floodplain and that retains a scant fraction of its 
natural water flows.
    One of the most vexing manifestations of the Rio Grande problem is 
the dominance of the river's ecosystem by non-native plants. The 
fertility of the Rio Grande basin, its ability to produce healthy crops 
and healthy wildlife has been sacrificed to persistent non-native 
species, like salt cedar.
    In speaking with local people in places like Presidio, Texas, 
Socorro, New Mexico and Alamosa, Colorado, we hear deep concern about 
the loss of land productivity from the invasion of salt cedar and a 
desire to reclaim the ecological and economic benefits of a healthy 
agro-ecological system, supported by a restored and healthy river.
    In the Rio Grande, producers and environmentalists have come 
together to attempt to address the salt cedar problem. Last year, the 
Alliance and the state Association of Soil and Water Conservation 
Districts successfully lobbied a $5 million appropriation from the New 
Mexico Legislature for salt cedar control and reestablishment of native 
vegetative associations. Bosque del Apache National Wildlife Refuge and 
Santa Ana Pueblo, to cite just two projects in the Middle Rio Grande, 
that are of the scale contemplated in the present legislation, have 
become model projects. They are indeed inspiring a growing regional 
effort to restore the Rio Grande.
    We are very pleased that the 108th Congress, with its consideration 
of H.R. 2707, is addressing this problem, which plagues not only our 
locality but so much of the West.
    In deliberating this bill, we hope the Resources Committee will 
consider a few reflections from our own experiences:
    <bullet> LThe projects to be funded by H.R. 2707 are worth 
undertaking, even if they do not salvage one acre-foot of useable 
water. Although we would desire a measurable increase in the 
availability of water to address the West's water shortages, neither 
Congress nor restoration practitioners should succumb to unreasonable 
expectations about the amount of water to be produced.
    The connection between surface water and groundwater is quite 
complex. In our experience, most of the expected gains from eradicating 
water-consuming non-native plants have remained in the groundwater 
system, and are not added directly to the useable supplies. What we can 
be sure of is that the water saved will remain on the landscape, 
elevating water tables and adding modest amounts to the surface water 
system. We maintain that the benefits of improved wildlife habitat, 
restoration of native associations and of land productivity are reason 
enough to undertake the projects contemplated by H.R. 2707.
    <bullet> LLand restoration resulting from this measure is not apt 
to be truly successful without attention to restoring some measure of 
the underlying hydrologic regime. In many cases, it is the loss of 
seasonal floods in the streams that has most contributed to the 
dominance of these non-native trees. Projects that fail to address the 
need of native species for periodic inundation of floodplains have been 
least successful in terms of self-maintenance of the desirable species 
and the regrowth of the target species.
    <bullet> LAn appropriate portion of the project funding must be 
devoted to monitoring, not just the water salvage benefit, but the 
success in restoring the desirable plant associations. We all want to 
maximize the number of acres restored using the limited funds 
available. In our experience, there is a tremendous temptation to 
devote almost no resources to long-term monitoring of the success of 
these projects, especially the succession of vegetative associations 
that follow the treatments. We urge this Committee, in its findings to 
the Congress, to recommend for appropriate monitoring regimes.
    <bullet> LTreatments selected for elimination of invasive species 
will vary from location to location. We have observed a tendency to 
over-rely upon aerial herbicide applications because initial per acre 
costs are lowest. However these treatment methods are not appropriate 
in a number of cases where native species, valuable pasture or open 
water is present on the project site. Project proponents should be 
advised to carefully assess the conditions of individual site and avoid 
reliance on an expedient, ``one size fits all'' approach.
    Salt Cedar, Russian Olive and other persistent invaders have indeed 
become a scourge on the West. We have made most progress in reclaiming 
afflicted lands where we recognize that underlying ecological factors 
have contributed to our problem, have corrected these conditions and 
provided hydrologic and soil conditions which will favor the desirable 
native vegetation over the invasives.
    Thank you.
                                 ______
                                 
    Mr. McInnis. Well, we have a lot in common--not in regards 
to your marriage, but--
    Let me--I would like to begin some of the questioning here 
very quickly.
    Mr. Kershaw, one point that I thought maybe you could go 
into a little more detail, but briefly, for me--you talked 
about that you were successful in killing the tamarisk, if I am 
correct. Or maybe it was Mr.--I am sorry, Mr. Davis. I am 
confused. I apologize, Mr. Kershaw.
    You talked about being able to kill the stuff, but it is 
the revegetation or something else that was difficult. Go 
through that again very briefly. What--does it poison the soil, 
or what is happening for getting something else to replace it?
    Mr. Davis. Mr. Chairman, in our particular demonstration 
project, we looked at specifically two ways to kill salt 
cedar--one, mechanically, by root-plying with bulldozers. Keep 
in mind, this salt cedar was 100 percent canopy-covered and was 
probably 12 to 15 feet high. Stem diameter was probably on the 
average of 4 inches. We used aerial application of Arsenal, 
which is a new herbicide that has only been on the market 
about, let's see now, about 20 years. In fact, I think we were 
the first ones in the Carlsbad Irrigation District to use 
Arsenal as early as 1991--1990, I think, is the first time I 
used Arsenal to control salt cedar.
    Both of those methods are very effective in controlling 
salt cedar. They have different cost regimes. But I think we 
know how to kill salt cedar. I think an aerial application of 
Arsenal with water at the rate of about 15, 18 gallons an acre 
really gets a good coverage on all the growth tips of the 
plants and you get a pretty good kill. Root-plying also is 
effective, maybe a little more effective as far as percent-
kill. It is a little more devastating to the ecology because 
you churn up a lot of ground, a lot of bare ground is exposed. 
However, that results in a better seed bed.
    Now, in the cases we looked at, both the aerial application 
and the mechanical, in both of those we had equal problems in 
getting native vegetation reestablished. We spent a significant 
amount of time and money going back over areas to try to 
reestablish native vegetation. We had a difficult time doing 
that. And what we ended up with was an environment out there 
that was not too conducive to wildlife or to soil stability.
    I hope these demonstration projects really focus in on 
that, because oftentimes we ended up with areas that were 
fairly destructive. And I blame our situation, difficulty of 
reestablishing native vegetation, primarily just due to 
rainfall. I have noticed areas on the Rio Grande where they 
could actually irrigate. They could dike and irrigate the 
reestablished native vegetation, whether it is reseeded or pole 
plantings, they were fairly successful. In our case, we weren't 
able to do that. We were dependent strictly on what nature 
provided.
    Mr. McInnis. The rainfall is the key, you think?
    Mr. Davis. I think it is the rainfall.
    Mr. McInnis. All right.
    Dr. Redifer, real briefly. I think you suggested you felt 
there were some modifications to the bill that might improve 
it. Could you just summarize that for me?
    Mr. Redifer. I would have liked to see that the bill 
specifically provide funding for development of a process model 
that would help in the multi-stakeholder approach toward 
building a long-term management solution. Without that, our 
efforts to control tamarisk and Russian olive aren't going 
anywhere. And so I see this bill as providing an opportunity to 
kind of provide a boost to this process, some seed money, 
perhaps, to help show that in one river district or several, we 
can develop that kind of management strategy, demonstrate that 
we can effectively control the problem from there. Then you 
have something you can export. You can send it to other river 
basins, the process itself. The strategy will look different, 
as I said in my testimony, depending on the makeup of the river 
basin and the people playing--the stakeholders involved. But 
the process could be the same.
    Mr. McInnis. Thank you.
    And Mr. Carlson, real briefly, since I am running out of 
time, tell me about the rate of speed of the tamarisk and the 
growth and the tenacity of the plant itself.
    Mr. Carlson. If I understand your question right--
    Mr. McInnis. For example, let me tell you--on the way to 
Moab, the Moab canyon there, all the tamarisk that is right 
along the Colorado River, is that all one root? How long--is it 
like an Aspen tree?
    Mr. Carlson. A lot of it could be from the same original 
plant. They have extensive root systems that--some literature 
would indicate that it goes down to 100 feet in depth, then out 
to the side over 50 feet. When a plant lays down, if there is 
moist soil, it will re-sprout from those shoots.
    What you saw on the Colorado River going through Moab, that 
all occurred from the 1984 flood. Remember, that was a time 
period when Lake Powell was about ready to overtop the dam. And 
that sent a lot of seed source from, really, Colorado into Utah 
and in the large wetlands area down there infested nearly 1,000 
acres of land down through there. When it gets a chance, it 
will spread rapidly.
    Mr. McInnis. Thank you.
    And Mr. Pearce, I might remind you, if you have a question, 
we also have Ms. Estill and Mr. Tate in the audience who would 
be happy to answer any questions you might have as well.
    Mr. Pearce. Thank you, Mr. Chairman. I mostly want to make 
a comment that dovetails with Mr. Sulnick's comment about the 
over-concern with seeing immediate flows at the end of a 
stream.
    In drilling oil wells, you have to--you drill down into the 
ground, and to keep the drill bit effective, you have to 
circulate the cuttings back out of the hole, the same as if you 
got a hand drill, you are drilling into a piece of wood or 
metal, you occasionally pull it out and you just blow the 
cuttings out, and that allows your bit to be effective. In 
drilling oil wells, you circulate fluid.
    When we go into fields that have been produced for a long 
time, you find that a certain hydrostatic pressure is needed at 
the bottom of the hole. Otherwise, your fluid comes down and 
goes out into the hole if you don't have a hydrostatic pressure 
against the hole to cause the fluid to take the path of least 
resistance.
    I suspect what we are finding when we do get rid of the 
invasive species is that what we are going to do is recharge 
the aquifers around our streams. I suspect that the streams' 
aquifers, that invisible piece underneath and on the sides that 
give hydrostatic push so that the water moves down the stream 
rather than soaking out into the aquifer around it, I suspect 
that we are going to have to recharge those. And I think that 
we can get very, very concerned, overly concerned with seeing 
flows at the end of a stream, right now, today. I think we 
probably have decades of overuse and over-exhaustion of these 
river systems.
    And so we are pretty committed to it because, I mean, you 
can just look down some of the small streams and rivers into 
Mexico and there is no way that the vegetation couldn't be 
soaking up a tremendous amount of the water. But if we think 
that we are going to have a solution that is immediately 
evident at the end of the day, I think we would be chasing that 
a little bit hard.
    But we are pretty committed to it, and we appreciate all 
the testimony here today. I think that a lot of valid points 
have been made. We have noted some of the concerns and some of 
the requests for changes in the bill, and I have been talking 
with my staff as we go along to see what we can do with those. 
I think all the comments are well-made.
    And Mr. Chairman, I appreciate the opportunity to present 
the bill today.
    Mr. McInnis. Thank you. And thank you, Mr. Pearce--your 
hard work is appreciated by many of your neighbors.
    With that, that concludes the hearing today. Once again, I 
want to thank all the witnesses for making a personal effort to 
be available today. The Committee--
    Do you have a request?
    Mr. Pearce. Sorry, Mr. Chairman. I have a couple of letters 
that I would like to have unanimous consent to insert into the 
record. Those were letters of support from Pueblo, Santa Ana, 
and also the Texas Department of Agriculture, that were sent in 
to Congressman Udall from my State. And with your permission, 
we would like to insert those into the record.
    Mr. McInnis. So ordered.
    [NOTE: Letters of support for H.R. 2707 have been retained 
in the Committee's official files.]
    Mr. McInnis. The Committee now stands in adjournment.
    [Whereupon, at 11:05 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
